No. _____

In the Supreme Court of the United States
____________
Ernest L. Francway, Jr.,
Petitioner,
v.
Robert Wilkie, Secretary of Veterans Affairs,
Respondent.
____________
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the
Federal Circuit
____________
PETITION FOR A WRIT OF CERTIORARI
____________

MICHAEL E. JOFFRE
Counsel of Record
WILLIAM H. MILLIKEN
STERNE, KESSLER, GOLDSTEIN & FOX, PLLC
1100 New York Avenue, N.W.
Washington, D.C. 20005
(202) 371-2600
mjoffre@sternekessler.com
Counsel for Petitioner

i
QUESTIONS PRESENTED
Congress has established a veterans-benefits
system that is uniquely pro-claimant. In veteransbenefit cases, every statutory and regulatory
presumption favors the veteran over the Department
of Veterans Affairs. Despite this, the Federal Circuit
has created a “presumption of competency” that
allows the VA and its reviewing courts to presume
that VA medical examiners are competent unless the
veteran articulates a specific reason to believe
otherwise. The questions presented are:
1. Whether the court of appeals erred in holding
that the VA enjoys a presumption that its medical
examiner is competent in every veterans-benefit
case.
2. Whether the court of appeals erred in
expanding the presumption of competency so that
the VA and reviewing courts presume, not only that
VA medical examiners are competent, but also that
they are specialists in the relevant area of medicine.

ii
STATEMENT OF RELATED CASES
Pursuant to Supreme Court Rule 14.1(b)(iii),
counsel for Petitioner states that it is not aware of
any proceedings directly related to the case in this
Court.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
STATEMENT OF RELATED CASES ....................... ii
TABLE OF AUTHORITIES ...................................... v
PETITION FOR A WRIT OF CERTIORARI ............ 1
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTORY PROVISIONS INVOLVED ................ 1
INTRODUCTION ...................................................... 2
STATEMENT ............................................................. 6
A. Statutory Framework...................................... 7
1. The VA-benefits adjudicatory system ....... 7
2. The presumption of competency ................ 9
B. Factual Background ...................................... 12
C. Procedural History ........................................ 17
REASONS FOR GRANTING THE PETITION ...... 21
I. THIS COURT SHOULD GRANT REVIEW TO
DISAVOW THE FEDERAL CIRCUIT’S JUDGEMADE PRESUMPTION OF COMPETENCY. .. 21
A. The presumption of competency is
illegitimate..................................................... 21
B. The presumption of competency is
conceptually unsound. ................................... 24
C. The presumption of competency is
inconsistent with the pro-claimant nature of
the VA adjudicatory system. ......................... 28

iv
D. The Federal Circuit’s defense of the
presumption was misguided. ........................ 30
II. EVEN IF THIS COURT LEAVES THE
PRESUMPTION OF COMPETENCY IN PLACE,
REVIEW IS WARRANTED TO CORRECT THE
FEDERAL CIRCUIT’S ERRONEOUS
EXPANSION OF THE PRESUMPTION........... 33
III.THE QUESTIONS PRESENTED ARE
IMPORTANT, AND THIS CASE IS AN IDEAL
VEHICLE THROUGH WHICH TO RESOLVE
THEM. ................................................................. 36
CONCLUSION ......................................................... 40
APPENDICES
A. Opinion, Francway v. Wilkie,
No. 2018-2136 (Fed. Cir. Oct. 15, 2019) ............. 1a
B. Opinion, Francway v. Wilkie,
No. 2018-2136 (Fed. Cir. July 23, 2019) .......... 13a
C. Sua Sponte Order Granting
Rehearing En Banc, Francway v. Wilkie,
No. 2018-2136 (Fed. Cir. October 15, 2019)..... 25a
D. Decision, Francway v. Shulkin,
(Vet. App. Feb. 6, 2018) .................................... 27a
E. Panel Decision, Francway v. Shulkin,
(Vet. App. Feb. 6, 2018) .................................... 50a
F. Decision, In re Francway, No. 04-09 153
(Bd. Vet. App. Oct. 13, 2016) ............................ 53a
G. Relevant Statutory Provisions ......................... 71a

v
TABLE OF AUTHORITIES
Cases
Barrett v. Nicholson,
466 F.3d 1039 (Fed. Cir. 2006) .............. 4, 8, 27, 28
Bastien v. Shinseki,
599 F.3d 1301 (Fed. Cir. 2010) .......... 11, 19, 20, 31
Boone v. Lightner,
319 U.S. 561 (1943)........................................27, 29
Chest v. Peake,
283 F. App’x 814 (Fed. Cir. 2008)........................35
Citizens to Preserve Overton Park, Inc.
v. Volpe,
401 U.S. 402 (1971)..............................................25
Cox v. Nicholson,
20 Vet. App. 563 (2007) .........................................9
Daubert v. Merrell Dow Pharm., Inc.,
509 U.S. 579 (1993)..............................................32
Dixon v. Shinseki,
741 F.3d 1367 (Fed. Cir. 2014) ......................28, 31
Henderson v. Shinseki,
562 U.S. 428 (2011)......................................7, 8, 28
Hodge v. West,
155 F.3d 1356 (Fed. Cir. 1998) ..............................7

vi
Jensen v. Brown,
19 F.3d 1413 (Fed. Cir. 1994) ..............................22
Kyhn v. Shinseki,
716 F.3d 572 (Fed. Cir. 2013) ..............................24
Latif v. Obama,
666 F.3d 746 (D.C. Cir. 2011) ..............................23
Leshore v. Brown,
8 Vet. App. 406 (1995) .........................................34
Mathis v. McDonald,
643 F. App’x 968 (Fed. Cir. 2016)............... passim
Mathis v. McDonald,
834 F.3d 1347 (Fed. Cir. 2016) ................... passim
Mathis v. Shulkin,
137 S. Ct. 1994 (2017).................................. passim
Nieves-Rodriguez v. Peake,
22 Vet. App. 295 (2008) .......................................32
O’Melveney & Myers v. F.D.I.C.,
512 U.S. 79 (1994)..........................................22, 23
Parks v. Shinseki,
716 F.3d 581 (Fed. Cir. 2013) .................... 9, 18, 31
Ralston v. Smith & Nephew Richards,
Inc.,
275 F.3d 965 (10th Cir. 2001)..............................34

vii
Rizzo v. Shinseki,
580 F.3d 1288 (Fed. Cir. 2009) .................... passim
Skoczen v. Shinseki,
564 F.3d 1319 (Fed. Cir. 2009) ..............................8
Vieth v. Jubelirer,
541 U.S. 267 (2004) .............................................31
Wood v. Peake,
520 F.3d 1345 (Fed. Cir. 2008) ....................... 7, 36
Statutes and Regulations
28 U.S.C. § 1254(1)......................................................1
38 U.S.C. § 1110 ..........................................................7
38 U.S.C. § 1111 ........................................................22
38 U.S.C. § 1112 ........................................................22
38 U.S.C. § 1116 ........................................................22
38 U.S.C. § 1132 ........................................................22
38 U.S.C. § 1133 ........................................................22
38 U.S.C. § 1153 ........................................................22
38 U.S.C. § 5103A(a) .............................................7, 28
38 U.S.C. § 5103A(d)(1)...............................................8
38 U.S.C. § 5107(b).......................................... 8, 28, 30

viii
38 U.S.C. § 7105 ..........................................................7
38 U.S.C. § 7261(c) ....................................................24
38 U.S.C. § 7266 ..........................................................7
38 U.S.C. § 7292 ....................................................7, 21
38 U.S.C. § 7292(c) ..............................................21, 39
38 U.S.C. § 7292(d)....................................................21
38 U.S.C. § 7292(d)(2) ...............................................24
38 C.F.R. § 3.159 .........................................................8
38 C.F.R. § 3.159(a)(1) ..........................................8, 33
Other Authorities
Br. Amicus Curiae Disabled American
Veterans in Support of Petitioner
Mathis v. Shulkin, No. 16-677 (U.S.
Dec. 22, 2016) .......................................................37
https://www.dictionary.com/browse/spec
ialist?s=ts .............................................................35
H.R. Rep. No. 100-963 (1988) .....................................8
2 McCormick on Evidence § 343
(7th ed.) ..........................................................25, 27
https://www.merriamwebster.com/dictionary/specialist .......................35

ix
Stacey-Rae Simcox, The Need for Better Medical
Evidence in VA Disability Compensation Cases
and the Argument for More Medical-Legal
Partnerships, 68 S.C. L. Rev. 223 (2016) ........... 26
VA Manual M21-1 ............................................ passim
VA Office of Inspector General,
Accuracy of Claims Decisions
Involving Conditions of the Spine
(Sept. 5, 2019) ......................................................26

PETITION FOR A WRIT OF CERTIORARI
Petitioner Ernest L. Francway, Jr., respectfully
petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for
the Federal Circuit in this case.
OPINIONS BELOW
The opinion of the Federal Circuit (Pet. App. 1a–
12a), a portion of which is joined by the en banc
court, has not yet been published in the Federal
Reporter but is available at 2019 WL 5151736. The
initial panel opinion (Pet. App. 13a–24a) is reported
at 930 F.3d 1377. The opinions of the Court of
Appeals for Veterans Claims (“CAVC”) (Pet. App.
27a–52a) are unreported but are available at 2018
WL 718564 and 2018 WL 2065565. The opinion of
the Board of Veterans’ Appeals (Pet. App. 53a–70a)
is unreported but is available at 2016 WL 7101251.
JURISDICTION
The en banc court of appeals sua sponte issued a
revised version of the court’s initial panel opinion
and entered judgment on October 15, 2019. This
Court has jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
Relevant statutory and regulatory provisions are
reproduced at Pet. App. 71a–90a.

2
INTRODUCTION
This case is the latest in a line of recent Federal
Circuit decisions applying the so-called “presumption
of competency” to deny veterans disability benefits
for injuries sustained in the line of duty. The
presumption of competency is a judge-made rule that
the Federal Circuit constructed ten years ago in
Rizzo v. Shinseki, 580 F.3d 1288 (Fed. Cir. 2009). In
effect, the presumption operates as an exception to
the VA’s statutory duty to assist veterans in
developing their claims: it absolves the VA of any
obligation to affirmatively establish a VA medical
examiner’s qualifications unless the veteran can
supply a specific reason for thinking the examiner is
not competent.
Providing such a specific reason, however, is
nearly impossible without access to information
about the examiner’s qualifications—and yet the VA
is not obligated to provide such information unless
and until the veteran can overcome the presumption.
The presumption thus denies veterans the very
information they need to overcome it. This perverse
requirement stands as a glaring anomaly in the
uniquely pro-claimant veterans-benefits scheme
created by Congress, as it alone—unlike every other
rule in the statutory regime—gives the benefit of the
doubt to the VA, rather than to the veteran.
The court of appeals—perhaps in recognition that
the doctrine is indefensible—took the extraordinary
step of sua sponte granting rehearing en banc in this
case and issuing a revised opinion joined in part by

3
the full court. But the revised opinion, while
professing to address the problems created by the
presumption of competency, in fact merely sidesteps
them. In a one-paragraph footnote, the full court
“overruled” certain (undefined) aspects of the
doctrine and rebranded it as “simply … a
‘requirement.’” Pet. App. 6a n.1. But the core of the
presumption (or, to use the Federal Circuit’s
euphemism,
“requirement”)—the
veteran’s
obligation to articulate a specific reason to believe
the examiner is incompetent before the VA will
address the issue—apparently remains intact. See
Pet. App. 7a–8a. And, as this case illustrates, it
continues to impede veterans in their pursuit of just
adjudication of their benefits claims.
Whatever one calls this doctrine, it is deeply
misguided, and this Court should grant certiorari
and set it aside. First, the presumption “enjoys no
apparent provenance in the relevant statutes,”
Mathis v. Shulkin, 137 S. Ct. 1994, 1995 (2017)
(Gorsuch, J., dissenting from denial of certiorari),
and those statutes nowhere give the Federal Circuit
the authority to create judge-made rules of decision
for use in VA-benefits proceedings. The court of
appeals thus lacked the authority to create the
presumption in the first place.
Second, the presumption is logically unsound. It
is rooted in the presumption of regularity, but there
is nothing remotely “regular” about the VA’s
processes for selecting medical examiners. Moreover,
the presumption is inconsistent with the evidentiary
maxim that, when the evidence to prove a fact is

4
peculiarly within the control of one party, that party
should bear the burden of proof. The VA is clearly
better equipped to assess the qualifications of its
own medical examiners (whom the VA hires and
trains) than are veteran claimants—many of whom
are proceeding pro se and are handicapped by
serious physical and mental disabilities.
Third, the presumption of competency is
irreconcilable with the governing statutory
framework. Veterans-benefits statutes—“imbued
with special beneficence from a grateful sovereign,”
Barrett v. Nicholson, 466 F.3d 1039, 1044 (Fed. Cir.
2006)—are, by design, non-adversarial, proclaimant, and paternalistic. Congress has mandated
that the VA assist veterans in developing their
claims and give them the benefit of the doubt in
determining whether they qualify for disability
benefits, and courts resolve all ambiguities in
veterans statutes in favor of the veteran. The
judicially created presumption of competency,
however, inhibits claimants in their pursuit of
benefits, contrary to the duty to assist; it gives the
benefit of the doubt to the VA rather than the
veteran, contrary to the benefit-of-the-doubt rule;
and it disfavors veterans, contrary to the pro-veteran
canon of construction.
Even if the Rizzo presumption is retained,
however, certiorari is still warranted. The Federal
Circuit has dramatically expanded the doctrine from
a presumption that VA medical examiners are
generally qualified health-care providers into a
presumption that VA medical examiners are

5
specialists in any area of medicine. In this case, the
Board of Veterans’ Appeals issued a remand order
requiring that petitioner Francway be examined by
an “appropriate medical specialist” to determine the
etiology of his lower-back condition. The courts below
relied on the presumption of competency to presume
that the doctor who eventually examined
Francway—an internist—was a specialist in treating
lower-back disorders. This arbitrary expansion of the
doctrine finds no support in the veterans-benefits
statute, in logic, or in common sense. And it is flatly
inconsistent with the VA’s duty to assist veterans in
developing their claims and to ensure substantial
compliance with its own remand orders.
The legitimacy and scope of the presumption of
competency are recurring and important issues. The
Federal Circuit has addressed the presumption in at
least six cases since 2009, and the agency has
applied the presumption to deny veterans disability
benefits in untold more. The court of appeals is
clearly aware that the presumption of competency is
a problem. In addition to the court’s extraordinary
sua sponte grant of en banc review in this case, the
Federal Circuit in 2016 came within two votes of
reconsidering the presumption in its entirety en
banc. The denial of en banc review drew strong
dissents, which harshly criticized the court’s decision
to “leave[] in place a judicially created evidentiary
presumption that in application denies due process
to veterans seeking disability benefits.” Mathis v.
McDonald, 834 F.3d 1347, 1353 (Fed. Cir. 2016)
(Reyna, J., dissenting from denial of rehearing en

6
banc). Given the Federal Circuit’s exclusive
jurisdiction over veterans cases, further percolation
of these issues in the lower courts is impossible.
This Court, too, has recognized the troubling
nature of the presumption. Although the Court
denied certiorari in Mathis, Justice Gorsuch
dissented from the denial, and Justice Sotomayor
wrote separately to suggest that the Court should
grant review in a case in which the VA “denied a
veteran benefits after declining to provide the
examiner’s credentials” in response to a request from
the veteran. Mathis, 137 S. Ct. at 1995 (Sotomayor,
J., statement respecting denial of certiorari). Here,
the Board itself put the examiner’s credentials at
issue by requiring that Francway be examined by a
“specialist,” and the CAVC and the Federal Circuit
then relied on the presumption to excuse the
agency’s failure to present any evidence that
Francway’s examiner was, in fact, so qualified. This
case thus presents an ideal vehicle for the Court to
address the propriety of the presumption.
STATEMENT
Petitioner Ernest Francway, Jr., served
honorably in the U.S. Navy from August 1968 to
May 1970, including a tour of duty in Vietnam
spanning from June 1969 to November 1969. While
in the service, Francway sustained various back
injuries—injuries that have resulted in a lifetime of
chronic back pain. This case arises from Francway’s
sixteen-year effort to obtain disability compensation
for those injuries from the VA.

7
A.

Statutory Framework

1.

The VA-benefits adjudicatory
system

Title 38 U.S.C. § 1110 entitles veterans to
disability compensation for injuries suffered in the
line of duty. Veterans who believe they are entitled
to compensation may file a claim with the VA. The
VA then determines whether the disability in
question is service-connected and, if so, awards the
veteran benefits. If the VA denies the claim, the
veteran may appeal to the Board of Veterans’
Appeals (“Board”), then to the CAVC, and then
finally to the Federal Circuit and this Court. See 38
U.S.C. §§ 7105, 7266, 7292; Henderson v. Shinseki,
562 U.S. 428, 440–41 (2011).
The VA-benefits adjudicatory system is unique in
American jurisprudence. As this Court has
recognized, “[t]he contrast between ordinary civil
litigation … and the system that Congress created
for the adjudication of veterans’ benefits claims could
hardly be more dramatic.” Henderson, 562 U.S. at
440. The scheme is “strongly and uniquely proclaimant.” Hodge v. West, 155 F.3d 1356, 1362 (Fed.
Cir. 1998). To that end, “proceedings before the VA
are informal and nonadversarial.” Henderson, 562
U.S. at 440.
Two specific aspects of this “informal and
nonadversarial” system are particularly relevant
here. First, “[t]he VA is charged with the
responsibility of assisting veterans in developing

8
evidence that supports their claims.” Id.; see 38
U.S.C. § 5103A(a). This is known as the “duty to
assist.” Thus, the VA’s interest is not in “winning,”
but rather in ensuring that veterans receive the
benefits to which they are entitled under the law.
Barrett, 466 F.3d at 1044. The duty to assist includes
the duty to “provid[e] a medical examination or
obtain[] a medical opinion when such an
examination or opinion is necessary to make a
decision on the claim.” 38 U.S.C. § 5103A(d)(1); see
Wood v. Peake, 520 F.3d 1345, 1347–48 (Fed. Cir.
2008). A veteran, moreover, is entitled to have his or
her claim adjudicated based on “competent medical
evidence.” 38 C.F.R. § 3.159. “Competent medical
evidence means evidence provided by a person who
is qualified through education, training, or
experience to offer medical diagnoses, statements, or
opinions.” Id. § 3.159(a)(1).
Second, “in evaluating th[e] evidence, the VA
must give the veteran the benefit of any doubt.”
Henderson, 562 U.S. at 440; see 38 U.S.C. § 5107(b)
(“When there is an approximate balance of positive
and negative evidence regarding any issue material
to the determination of a matter, the Secretary shall
give the benefit of the doubt to the claimant.”); H.R.
Rep. No. 100-963, at 13 (1988). This is commonly
referred to as the “benefit-of-the-doubt rule.” It
results in a uniquely low “‘equality of the evidence’
standard (as opposed to the more common
‘preponderance of the evidence’ standard applied in
most civil contexts).” Skoczen v. Shinseki, 564 F.3d
1319, 1324 (Fed. Cir. 2009). Thus, with respect to

9
any given issue in a VA-benefits proceeding, if the
evidence is in equipoise, the tie goes to the veteran.
2.

The presumption of competency

Under the presumption of competency, the VA
and the Federal Circuit presume, as a matter of law,
that the VA “has properly chosen a person who is
qualified to provide a medical opinion in a particular
case.” Parks v. Shinseki, 716 F.3d 581, 585 (Fed. Cir.
2013). The veteran may rebut this presumption only
by “set[ting] forth the specific reasons why the
litigant concludes that the [examiner] is not
qualified to give an opinion.” Mathis v. McDonald,
643 F. App’x 968, 971 (Fed. Cir. 2016); accord Parks,
716 F.3d at 585. Thus, the presumption of
competency effectively puts the burden on the
veteran to show that a VA medical examiner is not
qualified, rather than putting the burden on the VA
to show that the examiner is qualified.
The Federal Circuit first articulated the
presumption of competency a decade ago in Rizzo.
Rizzo “adopt[ed] the reasoning” of a 2007 CAVC
decision, Cox v. Nicholson, 20 Vet. App. 563 (2007),
which had asserted—without any substantive
analysis—that “the Board is entitled to assume the
competence of a VA examiner.” Rizzo, 580 F.3d at
1290-91 (quoting Cox, 20 Vet. App. at 569). As the
conceptual basis for this new presumption, the Rizzo
court relied on the presumption of regularity, which
“provides that, in the absence of clear evidence to the
contrary, the court will presume that public officers

10
have properly discharged their official duties.” Id. at
1292 (citation omitted).
The Federal Circuit has developed the
presumption of competency in a line of cases, the
most recent of which were the decision below and the
2016 Mathis case. “[T]he presumption as applied” in
the earlier cases “was a presumption that a doctor
with expertise in a certain topic was qualified to
opine on that topic.” Mathis, 643 F. App’x at 984
(Reyna, J., concurring). By the time Mathis was
decided, however, the presumption had gradually
come to mean that any VA healthcare provider is
presumed competent to opine on any particular
condition. See id. at 971–72; id. at 984 (Reyna, J.,
concurring).
While the Mathis panel followed the presumption
of competency as a matter of Circuit precedent, it
expressed serious reservations about the doctrine’s
continuing viability. The panel noted that the
presumption of regularity typically applies only to
“ministerial, routine, and non-discretionary” actions.
Id. at 973–74. But “[n]owhere in the Rizzo line of
cases … did either the Veterans Court or [the
Federal Circuit] perform an analysis to verify that
the procedures attending the selection and
assignment of VA examiners are, in fact, regular,
reliable, and consistent.” Id. at 974; see also id. at
975 (Reyna, J., concurring) (“[I]t was unprecedented
to apply the presumption of regularity to a process
such as determining whether a nurse is qualified to
provide an opinion on a particular issue.”).

11
Following the Federal Circuit’s denial of en banc
review (by a 7-5 vote), see 834 F.3d 1347, Mr. Mathis
sought certiorari in this Court. The Court denied the
petition, with Justice Gorsuch dissenting from the
denial of certiorari and Justice Sotomayor issuing a
statement respecting the denial. See 137 S. Ct. 1994.
The panel in the current appeal attempted to
downplay the negative effects of the presumption,
stating that it was a “narrow[]” rule that merely
requires that “the veteran raise[] the competency
issue.” Pet. App. 6a–7a. And the en banc Court—
apparently
recognizing
that
the
panel’s
characterization of the presumption is irreconcilable
with the Federal Circuit’s cases—inserted a footnote
into the opinion admonishing future courts to call
the presumption “simply … a ‘requirement’” and
stating that Rizzo and Bastien v. Shinseki, 599 F.3d
1301 (Fed. Cir. 2010), were overruled “to the extent
[they were] inconsistent” with the panel’s opinion.
Pet. App. 6a. The substantive import of this
footnote—if any—is far from clear, particularly given
the analysis elsewhere in the panel opinion. The
panel expressly reaffirmed Parks’s holding that, in
order to put the examiner’s competency at issue, the
veteran must “provide information” that sets forth a
specific reason why the examiner is incompetent. See
Pet. App. 8a. And that is not all. The panel also
dramatically expanded the scope of the presumption,
holding that VA medical examiners are presumed to
be not only competent, but also specialists. See Pet.
App. 12a. In short, while the nomenclature may have

12
changed, the presumption remains, broader than
ever before.
In the years since the presumption of competency
was invented, it has made its way not only into
CAVC and Federal Circuit decisions, but also into
the VA’s internal procedures regarding examiner
qualifications. The VA Manual instructs regional
offices who receive questions about or requests for
information regarding examiner competency to
themselves rely on the presumption of competency in
evaluating the request. VA Manual M21-1
§ III.iv.3.D.2.o. In other words, instead of providing
the veteran with information about the examiner’s
qualifications upon request and then assessing the
merits of any “specific challenges” to the examiner’s
competency, the agency relies upon the presumption
to deny veterans the very information they need to
mount a specific challenge. Judge Stoll sharply
criticized this practice in her dissent from denial of
rehearing in Mathis, stating that “[t]he agency itself
should not rely on the presumption that it followed
its rules when evaluating the very application of
those very rules.” 834 F.3d at 1360.
B.

Factual Background

1. While serving on an aircraft carrier in 1969,
Francway was hit by a gust of wind while carrying a
set of wheel chocks. He then dropped the chocks, fell
on top of them, and felt a “stabbing pain in [his]
back.” C.A.J.A. 1909 (Francway testimony to VA);
see also C.A.J.A. 95–97, 657. Francway was placed

13
on bedrest for a week and assigned to light duty for
three months.
Francway’s treatment records from 1995 to the
present reflect repeated complaints of lower back
pain, which he traces to the 1969 injury on the flight
deck. In the years following Francway’s discharge
from the service, he had to take off work “sometimes
a couple [of] times a month” because of his back
pain. C.A.J.A. 1912. He did not report his back
problems to his employer because he was afraid of
losing his job. Id. This account of chronic back pain
was corroborated by Francway’s longtime friend,
Glen Pettry, who has known him since the 1970s.
2. In April 2003, Francway filed a claim for
entitlement to service connection for the back injury
he sustained in 1969, as well as for a stomach
condition and post-traumatic stress disorder. The VA
regional office denied his claims the following month.
Francway appealed, and the Board eventually
remanded the case to the regional office, finding that
the VA had provided him with insufficient
assistance.
In May 2006, an orthopedist, Dr. Paul Steurer,
examined Francway. Dr. Steurer diagnosed
Francway with a “[l]umbosacral strain” and wrote,
“[i]t is not likely his current back symptoms are
related to a simple strain back in 1969, but rather a
natural [sic] occurring phenomenon.” C.A.J.A. 1705.
Two years later, the Board granted Francway
entitlement to service connection for a hernia, but it

14
again denied entitlement to service connection for
his lower-back condition. 1 Francway timely appealed
that decision to the CAVC.
3. In December 2010, while his appeal was
pending, Francway and the government agreed that
remand to the agency was “warranted … because the
Board did not provide an adequate statement of
reasons or bases for its determinations.” C.A.J.A.
1242. Accordingly, the parties filed a joint motion to
remand. The motion stated that it was “unclear how
[Dr. Steurer] reached [the] medical conclusion” that
Francway’s back injury was not related to his
military service, “when the medical history …
reflect[ed] 1) low back strain in service, 2) that ‘over
the years’ [Francway] has had ‘persistent back pain,’
and 3) that [Francway] now has ‘a chronic back pain
problem.’” C.A.J.A. 1243–44. This “medical history,
on its face, implie[d] a medical link to service based
on a continuation of symptomatology.” C.A.J.A. 1244.
“[T]he examiner’s rationale[s] for both medical
opinions appear to be somewhat vague,” the motion
continued, because it was “unclear what it means for
a lumbosacral strain to be a ‘natural occurring
phenomenon.’” Id. (citations omitted). The Board
again remanded the case to the VA.
In December 2011, Dr. Steurer reviewed
Francway’s file but failed to examine him, as the
remand order required. Dr. Steurer’s written opinion
1 The Board had granted Francway service connection for
his post-traumatic stress disorder in a separate decision.

15
was two sentences long and stated only that
Francway’s “spinal stenosis is less likely than not
related to service but natural age progression.”
C.A.J.A. 1139. Dr. Amy Schecter, a general internist,
later
provided
a
second
medical
opinion
recommending denying benefits. Like Dr. Steurer,
Dr. Schecter did not examine Francway, as the
remand order required.
A subsequent internal VA memo, dated April
2012, noted that neither physician’s opinion
complied with the Board’s remand order because
neither physician examined Francway and because
neither physician provided a “complete rationale.”
C.A.J.A. 1104–05. The memo explained that this was
“contrary to the [Board’s] instructions and w[ould]
cause another remand for not following the remand
directives.” C.A.J.A. 1105.
The VA then produced yet another opinion, this
time from Patrick Hopperton, a physician assistant.
Mr. Hopperton concluded (in an opinion strikingly
similar to the opinion from Dr. Steurer, which the
parties had already agreed was insufficient) that
Francway’s back injury was more likely “related to
natural age progression with consideration [sic] wear
and tear throughout his life.” C.A.J.A. 1097–98.
Francway again appealed to the Board. In
connection with his appeal, Francway submitted a
“buddy statement” from his longtime friend, Mr.
Pettry, that Francway has had debilitating back
pain for decades. Francway requested “that the
Board remand this matter for the provision of a

16
medical examination conducted by a board certified
orthopedist along with all necessary tests, to include
the provision of x-rays and MRI imaging.” C.A.J.A.
1052 (emphasis added).
4. In March 2013, the Board granted Francway’s
request, again remanding his case to the VA (the
“2013 Remand Order”). The Board ordered as
follows:
The Veteran[’s] claims file should be
reviewed by an appropriate medical
specialist for an opinion as to whether
there is at least a 50 percent
probability or greater … that he has a
low back disorder as a result of active
service…. The examiner should
reconcile any opinion provided with
the statements from the Veteran and
G.P. as to reported episodes of back
pain since active service.”
C.A.J.A. 1046 (first emphasis added).
In September 2014, orthopedist Dr. Steurer
examined Francway and submitted another opinion.
But, as the VA noted in a March 2015 internal email, Dr. Steurer’s opinion yet again did not comply
with the Board’s remand order because Dr. Steurer
did not reconcile his opinion with Mr. Pettry’s
statement. Accordingly, the e-mail stated, Dr.
Steurer should “provide an addition[al] medical
opinion/discussion” that specifically addressed Mr.
Pettry’s statement. C.A.J.A. 440.

17
Dr. Steurer, however, did not do so. Instead,
Dr. Schechter, the internist, reviewed Francway’s
file and the buddy statement and reiterated her
conclusion that Francway’s condition was not
service-connected. C.A.J.A. 435–36. A decision
review officer then denied Francway’s claim.
C.

Procedural History

1. Francway appealed to the Board, arguing that
neither Dr. Steurer’s nor Dr. Schechter’s opinion
complied with the terms of the 2013 Remand Order.
The Board rejected his arguments. E.g., Pet. App.
65a–66a.
2. Francway next appealed to the CAVC,
renewing his argument that the examinations and
opinions of Dr. Steurer and Dr. Schechter did not
comply with the terms of the 2013 Remand Order.
Francway noted that the 2013 Remand Order
required that the VA obtain “a medical opinion by an
‘appropriate medical specialist’ to specifically
‘reconcile any opinion provided with the statements
from the Veteran and G.P. as to reported episodes of
back pain since active service.’” C.A.J.A. 38–39. The
only opinion discussing Mr. Pettry’s statement,
however, was from Dr. Schechter—who was not an
orthopedic specialist. C.A.J.A. 39. Francway argued
that the Board clearly “desired an appropriate
medical specialist and not simply any doctor when it
directed an opinion by an appropriate medical
specialist.” Id.

18
The CAVC affirmed the Board’s decision. As
relevant here, the CAVC relied on the presumption
of competency to reject Francway’s argument that
the Board had erred in failing to ensure that “the
March 2015 examiner was an appropriate medical
specialist.” Pet. App. 43a. The court noted that the
“VA benefits from a presumption that it has properly
chosen a person who is qualified to provide a medical
opinion in a particular case.” Id. (quoting Parks, 716
F.3d at 585). “Thus,” the court reasoned, “the Board
was not required to provide a statement of reasons
or bases establishing the medical examiner’s
competence before relying on her opinion.” Id. (citing
Rizzo, 580 F.3d at 1291–92). The court also stated
that Francway had “fail[ed] to demonstrate
prejudicial error because he fail[ed] to explain why
an internal medicine specialist may not qualify as
‘an appropriate medical specialist.’” Id. 44a.
3. Francway then appealed to the Federal
Circuit, arguing that the court should overrule the
presumption of competency or—at a minimum—
decline to extend it to a case like this one in which a
remand order specifically calls for a “specialist.” 2 As
Francway explained, even if all VA medical
examiners may be presumed competent, it does not
follow that they may all be presumed to be
specialists in every area of medicine.

2 Francway petitioned for initial hearing en banc prior to
filing his opening brief, but the petition was denied.

19
The Federal Circuit rejected Francway’s
arguments. The court of appeals refused to overturn
Rizzo and its other presumption-of-competency cases
because, it said, the presumption was in fact simply
a “narrow[]” rule that required only that “the
veteran raise[] the competency issue.” Pet. App. 6a–
7a. The panel later acknowledged, however, that the
veteran must do more than raise the issue; he must
make a “specific[] … challenge” to the competency of
the examiner. Id. 8a. In other words, as other
Federal Circuit decisions have repeatedly held, the
veteran must provide “specific reasons why the
litigant concludes that the expert is not qualified to
give an opinion.” Mathis, 643 F. App’x at 971
(quoting Bastien, 599 F.3d at 1307).
Relying on the presumption of competency, the
Federal Circuit affirmed the denial of Francway’s
claim for benefits because it found “no legal error”
with the CAVC’s determination that Francway “had
not raised the competency issue with sufficient
clarity to the Board,” Pet. App. 11a—that is, had not
articulated a sufficiently “specific” challenge to the
internist’s qualifications. The court also “s[aw] no
reason to distinguish between how the presumption
applies to ‘general’ medical examiners as compared
to ‘specialists.’” Id. 12a. “The presumption,” the court
stated, “is that the VA has properly chosen an
examiner who is qualified to provide competent
medical evidence in a particular case absent a
challenge by the veteran.” Id.
Nearly three months after the court issued its
judgment, the court of appeals sua sponte granted

20
rehearing en banc. The en banc court left the panel
opinion essentially intact but inserted the following
footnote:
The en banc court … has determined
that to the extent that the decision
here is inconsistent with Rizzo v.
Shinseki, 580 F.3d 1288 (Fed. Cir.
2009), and Bastien v. Shinseki, 599
F.3d 1301 (Fed. Cir. 2010), those cases
are overruled. We note that in the
future, the requirement that the
veteran raise the issue of the
competency of the medical examiner is
best referred to simply as a
“requirement” and not a “presumption
of competency.”
Pet. App. 6a n.1. Notably, the en banc court left in
place the panel’s conclusions that (i) the veteran
must raise a “specific[] … challenge” to the
examiner’s competency to overcome the presumption
and (ii) the presumption applies equally to
specialists and regular medical examiners. See Pet.
App. 8a, 12a.
This petition followed.

21
REASONS FOR GRANTING THE PETITION
I.

THIS COURT SHOULD GRANT REVIEW
TO DISAVOW THE FEDERAL CIRCUIT’S
JUDGE-MADE PRESUMPTION OF
COMPETENCY.
A.

The presumption of competency is
illegitimate.

The most fundamental problem with the
presumption of competency is that the VA and the
Federal Circuit lacked the authority to create it in
the first place.
1. Under 38 U.S.C. § 7292, the Federal Circuit’s
jurisdiction in veterans-benefits cases is limited to
interpreting
the
Constitution,
congressional
statutes, and agency regulations. Id. § 7292(c), (d).
But the Rizzo court did not purport to rely on a
statute or a regulation in adopting the presumption;
instead, the Federal Circuit simply created it out of
whole cloth. See Mathis, 137 S. Ct. at 1995 (Gorsuch,
J., dissenting from denial of certiorari) (“[W]here
does this presumption come from? It enjoys no
apparent provenance in the relevant statutes. There
Congress imposed on the VA an affirmative duty to
assist—not impair—veterans seeking evidence for
their disability claims.”). The task of fashioning such
presumptions belongs to Congress, not the federal
courts.
Indeed, Congress knows how to create
presumptions for application in veterans-benefits

22
adjudicatory proceedings. It has already done so, in
numerous places throughout Title 38 of the U.S.
Code. See, e.g., 38 U.S.C. § 1111 (establishing
presumption that wartime veterans were “in sound
condition when examined, accepted, and enrolled for
service”); id. § 1132 (establishing presumption that
peacetime veterans were in sound condition when
enrolled for service); see also id. § 1112; id. § 1116;
id. § 1133; id. § 1153. Notably, all these statutory
presumptions favor the claimant over the VA. Not a
single one favors the VA over the claimant, as the
presumption of competency does. The presumption of
competency is thus not only untethered to any
applicable statute or regulation; it is inconsistent
with the entire statutory regime applicable to
veterans benefits. See Jensen v. Brown, 19 F.3d
1413, 1417 (Fed. Cir. 1994) (rules applicable in VAbenefits proceedings “should be structured so that if
any error occurs, it will occur in the veteran’s favor”).
This Court’s decision in O’Melveney & Myers v.
F.D.I.C., 512 U.S. 79 (1994), is instructive and
demonstrates why the court-created presumption of
competency is illegitimate. There, the FDIC had
argued that a federal statute governing FDIC
receiver actions, FIRREA, authorized federal courts
to create a specific right of the FDIC receiver as a
matter of “federal common law”—a right that the
receiver would not have had under the otherwise
applicable state law. This Court held that this
argument was “demolished” by the fact that various
provisions of the FIRREA did “specifically create
special federal rules of decision regarding claims by,

23
and defenses against, the FDIC as receiver”—and
yet no provision established the specific right for
which the FDIC was advocating. Id. at 86. Relying
on the maxim “[i]nclusio unius, exclusio alterius,”
the Court found it “hard to avoid the conclusion” that
the statute required the FDIC “to work out its claims
under state law, except where some provision in the
extensive
framework
of
FIRREA
provides
otherwise.” Id. at 86–87. “To create additional
‘federal common-law’ exceptions,” the Court stated,
“is not to ‘supplement’ this scheme, but to alter it.”
Id. at 87.
A similar conclusion is appropriate here.
Congress knew how to create presumptions for
application in veterans-benefits adjudications, and it
did so in several instances in the detailed statutory
framework of Title 38. This leads inescapably to the
inference that Congress did not intend courts to
create other presumptions as a matter of federal
common law—particularly ones like the Rizzo
presumption that (unlike every presumption
explicitly set forth in the statute) disfavor the
veteran.
2. The Federal Circuit’s creation of the
presumption of competency was ultra vires for an
additional reason. The presumption of competency is
an application of the presumption of regularity, and
the application of that presumption depends on the
factual predicate that the process to which the
presumption applies is routine and reliable. See Latif
v. Obama, 666 F.3d 746, 771 (D.C. Cir. 2011) (Tatel,
J., dissenting). But both the Federal Circuit and the

24
CAVC
lack
jurisdiction
to
make
factual
determinations in veterans-benefits cases, see 38
U.S.C. § 7292(d)(2); id. § 7261(c)—meaning neither
court possessed the power to establish that factual
predicate. See Mathis, 643 F. App’x at 982 (Reyna,
J., concurring).
Indeed, the Federal Circuit’s continued adherence
to the presumption of competency creates an intracircuit split on this issue. In Kyhn v. Shinseki, 716
F.3d 572 (Fed. Cir. 2013), the court held that the
CAVC erred by applying the presumption of
regularity to the VA’s procedures for providing notice
of examinations because application of the
presumption depended on the predicate factual
finding that those procedures were “regular”—a
factual finding that the CAVC lacked jurisdiction to
make. Id. at 577–78. In the presumption-ofcompetency cases, however, the Federal Circuit has
sanctioned just this sort of judicial fact-finding. This
Court’s intervention is necessary to resolve this
contradiction in the lower court’s caselaw.
B.

The presumption of competency is
conceptually unsound.

The presumption is not only illegitimate; it is also
illogical, for two reasons. First, application of the
presumption of regularity is inappropriate in this
context because the VA’s process for selecting
medical examiners is neither routine nor reliable.
Second, the presumption is inconsistent with the
bedrock principle that the burden of proof with

25
respect to a given fact should fall on the party best
situated to adduce evidence of that fact.
1. The presumption of regularity historically has
been applied only to non-discretionary and
“ministerial” agency actions; it does not shield
substantive agency action “from a thorough, probing,
in-depth review.” Citizens to Preserve Overton Park,
Inc. v. Volpe, 401 U.S. 402, 415 (1971); see also 2
McCormick on Evidence § 343 (7th ed.) (“[o]fficial
actions by public officers” are subject to the
presumption of regularity because of the high
probability that they were carried out correctly). The
“process by which medical examiners are selected to
provide expert opinions on medical issues” is “far
from a routine, ministerial procedure.” Mathis, 834
F.3d at 1355 (Reyna, J., dissenting from denial of
rehearing en banc). Indeed, the VA has near-total
discretion regarding its choice of a medical examiner
in any given case. See VA Manual M21-1
§ III.iv.3.A.6.d (“The choice of examiners is up to the
VA medical facility conducting the examination,
unless the BVA remand specifies that the
examination must be conducted by a Board-certified
specialist in …, or specialist who is Board qualified.”)
(emphasis omitted). This is not the sort of the
procedure for which the presumption of regularity is
appropriate.
Moreover, as the Federal Circuit recognized in
Mathis, a “presumption should be predicated on
evidence that gives us confidence that a particular
procedure is carried out properly and yields reliable
results in the ordinary course.” 643 F. App’x at 973.

26
But there is no evidentiary support for the
proposition that the VA selection process for medical
examiners meets this requirement. And significant
evidence suggests that it does not.
As a general matter, “the Board remands almost
half (47% in 2015) of disability compensation appeals
back to the regional offices.” Mathis, 834 F.3d at
1356 (Reyna, J., dissenting from denial of rehearing
en banc). That means the VA gets disability
determinations wrong in the first instance
approximately half the time. “[T]he reality,” one
commentator has explained, is that the “VA has
consistently demonstrated difficulty fulfilling its
fundamental obligation to provide veterans with
adequate medical examinations and opinions in the
first instance.” Stacey-Rae Simcox, The Need for
Better Medical Evidence in VA Disability
Compensation Cases and the Argument for More
Medical-Legal Partnerships, 68 S.C. L. Rev. 223, 230
(2016). This “reality” is particularly evident in
claims concerning diseases of the spine; a recent
study found that the VA incorrectly processed over
50% of such claims decided in the first half of 2018.
VA Office of Inspector General, Accuracy of Claims
Decisions Involving Conditions of the Spine, at i
(Sept. 5, 2019).
Indeed, this case provides an illustrative example
of the VA’s difficulty in properly adjudicating
veterans disability claims. The VA has—by its own
admission—repeatedly failed to provide Francway
with an adequate medical examination over the

27
sixteen-year course of these proceedings. See supra
Statement of the Case; C.A.J.A. 439–40, 1104–05.
There is no evidence that the VA fares any better
in the specific context of selecting medical
examiners. For example, with respect to one common
type of claim—traumatic brain injuries—the VA has
admitted that over 24,000 veterans have received
examinations from unqualified examiners. See
Mathis, 834 F.3d at 1356 n.5 (Reyna, J., dissenting
from denial of rehearing en banc). This is
particularly noteworthy given that VA guidelines
explicitly require that veterans with traumatic brain
injuries be examined by certain types of specialist
physicians. See VA Manual M21-1 § III.iv.3.D.2.b. If
the VA cannot reliably select competent examiners
in
the
traumatic-brain-injury
context—
notwithstanding the explicit requirements for those
examiners’ qualifications—there is no reason to
assume the agency does any better in the typical
case where there is essentially no selection protocol
and where examiners need not specifically state
their credentials in their reports.
2. This Court has long recognized that “all
evidence is to be weighed according to the proof
which it was in the power of one side to have
produced and in the power of the other side to have
contradicted.” Boone v. Lightner, 319 U.S. 561, 570
(1943) (citation omitted); 2 McCormick on Evidence
§ 343. The Federal Circuit recognizes this principle
as well. See Barrett, 466 F.3d at 1042.

28
On this logic, the presumption of competency gets
things exactly backwards. The VA plainly has
superior access to information regarding the
qualifications of its own examiners. On the other
hand, veterans seeking disability compensation—
many of whom suffer “from very significant
psychiatric and physical disabilities,” Dixon v.
Shinseki, 741 F.3d 1367, 1376 (Fed. Cir. 2014)—are
ill equipped to gather the evidence necessary to
overcome the presumption.
C.

The presumption of competency is
inconsistent with the pro-claimant
nature of the VA adjudicatory
system.

The presumption of competency stands as a
glaring anomaly in the system of veterans-benefits
adjudication. “Congress’ intent in crafting the
veterans benefits system [was] to award
entitlements to a special class of citizens, those who
risked harm to serve and defend their country,” and
consequently, the “entire scheme is imbued with
special beneficence from a grateful sovereign.”
Barrett, 466 F.3d at 1044 (quotation marks and
citation omitted). By design, the system favors the
veteran at every turn. See Henderson, 562 U.S. at
440–41. As noted above, the VA has a duty to assist
claimants in developing their claims, see 38 U.S.C.
§ 5103A(a), and to give the veteran “the benefit of
any reasonable doubt” “regarding any issue material
to the determination of a matter,” 38 U.S.C.
§ 5107(b). To a similar end, statutes benefitting
veterans must “be liberally construed to protect

29
those who have been obliged to drop their own
affairs to take up the burdens of the nation.” Boone,
319 U.S. at 575.
The presumption of competency is inconsistent
with all three of these features of the veteransbenefits system. Specifically, the presumption
impairs veterans in their efforts to obtain disability
compensation:
[C]onsider how the presumption works
in practice. The VA usually refuses to
supply information that might allow a
veteran to challenge the presumption
without an order from the Board of
Veterans’ Appeals. And that Board
often won’t issue an order unless the
veteran can first supply a specific
reason for thinking the examiner
incompetent…. [H]ow is it that an
administrative
agency
may
manufacture for itself or win from the
courts a regime that … does nothing to
assist, and much to impair, the
interests of those the law says the
agency is supposed to serve?
Mathis, 137 S. Ct. at 1995 (Gorsuch, J., dissenting
from denial of certiorari); see also Mathis, 834 F.3d
at 1358–59 (Reyna, J., dissenting from denial of
rehearing en banc). The unfairness of the system is
impossible to overstate: the VA itself employs the
presumption in order to deny veterans access to the
very information they need to rebut it. See Mathis,

30
834 F.3d at 1360 (Stoll, J., dissenting from denial of
rehearing en banc).
The presumption also conflicts with the benefitof-the-doubt rule. In direct contravention of the
mandate of § 5107(b), the presumption requires that
doubts about VA examiners’ qualifications are
resolved against veterans and in favor of the VA—at
least unless the veteran is able to supply a “specific
reason” to think the examiner is incompetent.
Finally, the presumption violates the pro-veteran
canon of statutory construction, since it disfavors
veterans seeking disability compensation. If the
Federal Circuit wishes to create presumptions for
application in VA-benefits proceedings, it must
ensure that those presumptions benefit the veteran,
not the VA. Given the pro-veteran canon, the
presumption of competency simply cannot be
reconciled with the statutory duty to assist and the
regulatory duty to base benefits decisions on
competent medical evidence.
D.

The Federal Circuit’s defense of the
presumption was misguided.

The court below attempted to downplay the
negative effects of the presumption of competency,
contending that it is “far narrower than Francway
asserts and is not inconsistent with the statutory
scheme.” Pet. App. 6a. According to the panel, the
presumption requires only that “the veteran raise[]
the competency issue.” Id. 7a. But, to adequately
“raise[] the competency issue,” the veteran is

31
required to “provide information” that sets forth a
“specific[] … challenge” to the examiner’s
qualifications. Id. 8a (quoting Parks, 716 F.3d at
585); accord Mathis, 643 F. App’x at 971; Bastien,
599 F.3d at 1307. The en banc court’s footnote—
which, as noted above, rebranded the presumption
as “simply a ‘requirement’” and purported to
overrule prior Federal Circuit cases to some
unspecified extent—apparently does not affect this
aspect of the doctrine, because the panel’s decision
specifically reaffirms it. See Pet. App. 6a n.1. And, as
noted above, the VA will not provide information
necessary to present a “specific challenge” unless the
veteran can first overcome the presumption.
This practice flies in the face of the duty to assist,
which obligates the VA to ensure that the veteran is
provided with all information necessary for a fair
decision on her claim. See Dixon, 741 F.3d at 1373.
Instead of placing the burden on the VA to show that
its examiners are competent (a burden the VA could
easily satisfy), the presumption places the burden on
the veteran to show that a given examiner is
incompetent. That makes no sense. “[P]roving a
negative is a challenge in any context,” Vieth v.
Jubelirer, 541 U.S. 267, 311 (2004) (Kennedy, J.
concurring)—and especially in this one, given that
many veterans are proceeding pro se, suffer from
serious physical and mental handicaps, and have no
way to obtain information about an examiner’s
qualifications, see Dixon, 741 F.3d at 1376.
The absurdity of the VA’s current practice is also
illuminated through consideration of how VA

32
medical
examiners function in VA-benefits
proceedings. “VA medical examiners are nothing
more or less than expert witnesses[] who provide
opinions on medical matters.” Mathis, 834 F.3d at
1358 (Reyna, J., dissenting from denial of rehearing
en banc) (quotation marks and citation omitted).
Accordingly, when the VA proffers their testimony, it
should be obligated to establish their qualifications,
just as is the case with expert witnesses in federal
court. See generally Daubert v. Merrell Dow Pharm.,
Inc., 509 U.S. 579 (1993). Notably, the VA in fact
follows this practice when it comes to private
examiners submitting opinions on behalf of veterans:
it requires such examiners to submit evidence
concerning their qualifications, reasoning that the
agency is “unable to assess their experience or
qualifications to render an opinion when they do not
include information regarding their specialty or a
CV.” Mathis, 643 F. App’x at 979 (Reyna, J.,
concurring) (quotation marks omitted) (collecting
cases). The same logic should apply with at least the
same force to the VA’s own examiners. Thus, even if
the panel’s characterization of the presumption as a
“narrow” rule that requires only that the veteran
“raise the issue” were correct, the rule would still
make no sense, as it allows the VA to credit the
testimony of an expert witness without any
information as to his or her qualifications. See id. at
978–79 (“That an examiner is qualified to provide a
report should be a ‘threshold consideration’ before
her report is considered by the Board.”) (quoting
Nieves-Rodriguez v. Peake, 22 Vet. App. 295, 304
(2008)).

33
II.

EVEN IF THIS COURT LEAVES THE
PRESUMPTION OF COMPETENCY IN
PLACE, REVIEW IS WARRANTED TO
CORRECT THE FEDERAL CIRCUIT’S
ERRONEOUS EXPANSION OF THE
PRESUMPTION.

Even if the presumption of competency is
retained, this Court should still reject the expansion
of the doctrine wrought by the Federal Circuit here.
Until the decision below, the Rizzo presumption
meant only that, when the VA undertakes to provide
a medical examination, the individual who is chosen
to perform the examination is presumed to be a
competent medical examiner—that is, presumed to
be “qualified through education, training, or
experience to offer medical diagnoses, statements, or
opinions.” 38 C.F.R. § 3.159(a)(1).
In this case, however, the CAVC applied the
presumption to hold that, when the VA specifically
orders that an examination be conducted by a
“specialist,” the individual chosen to perform the
examination is presumed to be a competent specialist.
Pet. App. 43a–44a. The claim in this case is for a
back injury, so the area of specialty in question is
orthopedic medicine. The CAVC rejected Francway’s
argument that Dr. Schechter was not qualified as an
orthopedic specialist—notwithstanding the fact that
there is no evidence whatsoever that she was so
qualified—because Francway had not “explain[ed]
why an internal medicine specialist may not qualify
as ‘an appropriate medical specialist.’” Id. The
Federal Circuit then endorsed this dramatic

34
expansion of the presumption, stating that it “s[aw]
no reason to distinguish between how the
presumption applies to ‘general’ medical examiners
as compared to ‘specialists.’” Pet. App. 12a.
The Federal Circuit’s holding lacks any basis in
the relevant statutes or regulations, in this Court’s
case law, or in common sense. Even if the VA may
properly presume that any given individual chosen
by a VA medical facility is a competent healthcare
provider, it does not follow that the VA may presume
that the individual is a “specialist” qualified to
render an expert opinion in any given area (for
example, orthopedic medicine). See, e.g., Ralston v.
Smith & Nephew Richards, Inc., 275 F.3d 965, 970
(10th Cir. 2001) (“[M]erely possessing a medical
degree is not sufficient to permit a physician to
testify concerning any medical-related issue.”).
Indeed, the CAVC itself has acknowledged that “a
medical professional is not competent to opine as to
matters outside the scope of his or her expertise.”
Leshore v. Brown, 8 Vet. App. 406, 409 (1995).
“Specialist doctors exist because the body of medical
knowledge is larger than any individual doctor can
learn, and it continues to grow as new research is
conducted. No doctor can ready every journal in
every specialty.” Mathis, 643 F. App’x at 984 (Reyna,
J., concurring).
The VA manual itself recognizes that a
competent medical examiner is not necessarily a
“specialist,” defining a “specialist” as “a clinician who
specializes in a particular field” and distinguishing
specialists from ordinary VA medical examiners. VA

35
Manual M21-1 § III.iv.3.A.1.h. This accords with the
plain meaning of the term, as evidenced by
dictionaries defining a “specialist” as, for example, “a
person who devotes himself or herself to one subject
or to one particular branch of a subject or pursuit,”
or “a medical practitioner who devotes attention to a
particular class of diseases, patients, etc.” 3 Under
the Federal Circuit’s reasoning, however, the word
“specialist” has no meaning at all.
Moreover, the Federal Circuit’s transformation of
the presumption of competency into a presumption of
specialization is flatly inconsistent with the VA’s
duty to assist claimants in obtaining the evidence
necessary to develop their claims, see Wood, 520 F.3d
at 1348. It is also inconsistent with the VA’s duty to
ensure substantial compliance with remand orders,
see Chest v. Peake, 283 F. App’x 814, 816–17 (Fed.
Cir. 2008). Where, as here, the Board determines
that a medical opinion from a “specialist” is
necessary, the VA is obligated to ensure that the
chosen examiner is, in fact, a specialist in the
relevant area of medicine. The VA may not rely on a
court-created “presumption” to satisfy that
affirmative duty.

3
https://www.dictionary.com/browse/specialist?s=ts; see
also
https://www.merriam-webster.com/dictionary/specialist
(defining “specialist” as “one who specializes in a particular
occupation, practice, or field of study,” such as “a specialist in
disorders of the immune system.”

36
Thus, contrary to what the CAVC thought, it was
not Francway’s burden “to explain why an internal
medicine specialist may not qualify as ‘an
appropriate medical specialist’” for his back claim.
Pet. App. 44a. The CAVC (and the Federal Circuit)
got the inquiry exactly backwards: the burden
should have been on the VA to establish that the
internist Dr. Schechter was an “appropriate medical
specialist,” not on Francway to show the contrary.
It is particularly important that the VA ensure
that a specialist is provided when one is specifically
required because, in general, the VA has a strong
preference for selecting general practitioners over
specialists to perform most disability evaluations.
The VA Manual instructs regional offices to
“[r]equest a specialist examination only if it is
considered essential for rating purposes.” VA Manual
M21-1 § III.iv.3.A.6.c (emphasis added). Given this
default rule in favor of generalists, it is necessary to
impose upon the VA an affirmative duty to establish
that, when a specialist is requested, a specialist is
procured.
III.

THE QUESTIONS PRESENTED ARE
IMPORTANT, AND THIS CASE IS AN
IDEAL VEHICLE THROUGH WHICH TO
RESOLVE THEM.

The questions presented in this case are vitally
important to thousands of veterans seeking
disability benefits for injuries sustained in the line of

37
duty. 4 Their importance is clear from the
extraordinary sua sponte grant of en banc review
below, and from the lengthy opinions accompanying
the denial of en banc hearing in the Mathis case. As
many Federal Circuit judges recognized in that case,
the presumption of competency leads to an “absurd”
outcome. Mathis, 643 F. App’x at 986 (Reyna, J.,
concurring). It “makes the choice of examiners and
their qualifications effectively unreviewable, and
bars consideration of an examiner’s qualifications in
weighing
the
persuasive
value
of
her
testimony.” Id. The presumption thus insulates the
VA’s decisions from scrutiny and inevitably leads to
the improper denial of veterans’ claims.
This case, moreover, presents an ideal vehicle in
which to address these issues. The CAVC and the
court of appeals relied exclusively on the
presumption of competency in denying Francway’s
claim, see Pet. App. 5a–11a, 43a–44a, and the
presumption’s
scope
and
legitimacy
was
exhaustively briefed in the court below. Indeed, this
is a particularly appropriate case in which to
consider the propriety of the presumption because
competence is undisputedly at issue here: the Board

See, e.g., Br. Amicus Curiae Disabled American Veterans
in Support of Pet’r at 15, Mathis v. Shulkin, No. 16-677 (U.S.
Dec. 22, 2016) (“With no safeguards on the competence of
medical examiners, veterans are left to suffer the consequences
of being denied benefits to which they are entitled, and the
already labyrinthine veterans benefits system is made even
more opaque and difficult to navigate.”).
4

38
itself found that a specialist was necessary to fairly
evaluate Francway’s claim, and yet it relied on the
presumption to excuse the VA’s failure to ensure
that a specialist was in fact procured.
Justice Sotomayor, in a statement respecting the
denial of certiorari in the Mathis case, acknowledged
that the presumption of competency implicates
“important questions about how the Government
carries out its obligations to our veterans,” but
suggested that the Court should grant review in a
case in which “the VA denied a veteran benefits after
declining to provide the medical examiner’s
credentials.” 137 S. Ct. at 1994–95. The situation
here presents an even more compelling case for
certiorari than Justice Sotomayor’s hypothetical: as
explained above, the Board itself put competency at
issue by ordering review by a specialist. This petition
thus presents an opportunity for the Court to
address the presumption in a case in which it is
unquestionably relevant.
It is unlikely, moreover, that a better candidate
for certiorari will arise. Most veterans proceed pro se
before the VA in the first instance. Accordingly, they
are unlikely to have the requisite familiarity with
these issues to understand their purported
obligation to raise a “specific challenge” to the
examiner’s competency. And, precisely because the
presumption of competency is the sole exception to
the VA’s duty to assist, a veteran who has been
consistently aided by the VA in the development of
her claim will never think that the onus is on her to
challenge the examiner’s competence or to ask for

39
the examiner’s qualifications in the first instance.
The veteran is particularly likely to be confused
about her obligations given (i) the Federal Circuit’s
opaque en banc footnote—which does not specify
which aspects of the presumption remain good law
and which do not—and (ii) the VA’s continued
reliance on the presumption to refuse to provide
veterans with the information they need to mount
challenges to examiner competency, see VA Manual
M21-1 § III.iv.3.D.2.o.
More fundamentally, requiring the veteran to ask
for the examiner’s credentials on pain of losing the
ability to challenge the examiner’s competency is
precisely the sort of harm that the duty to assist is
supposed to prevent. That duty mandates that the
burden is on the VA to ensure that the veteran’s
rights are vindicated. This Court should not deny
certiorari based on Francway’s failure to fulfill
procedural obligations that never should have been
imposed upon him in the first place.
In short, this case is an excellent vehicle for
review, and this Court’s intervention is needed now.
In Mathis, the Federal Circuit refused, by a vote of
7-5, to reconsider the presumption. And the en banc
court’s footnote in the decision below demonstrates
that the court is now content to let the core of the
presumption live on in perpetuity, albeit with the
less-threatening title “requirement.” Given the
Federal Circuit’s exclusive jurisdiction over appeals
from the CAVC, see 38 U.S.C. § 7292(c), further
percolation of this issue in the judicial branch will
not change the status quo. And the VA itself has

40
shown no signs of amending its practices; it has
steadfastly defended the validity of the presumption
since it was established. Accordingly, the only
recourse for veterans like Francway is review in this
Court.
CONCLUSION
This Court should grant the petition for certiorari
and reverse the judgment below.
Respectfully submitted,
MICHAEL E. JOFFRE
Counsel of Record
WILLIAM H. MILLIKEN
STERNE, KESSLER, GOLDSTEIN &
FOX, PLLC
1100 New York Avenue, N.W.
Washington, D.C. 20005
(202) 371-2600
mjoffre@sternekessler.com
Counsel for Petitioner

APPENDICES

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
______________________
ERNEST L. FRANCWAY, JR.,
Claimant-Appellant
v.
ROBERT WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
______________________
2018-2136
______________________
Appeal from the United States Court of Appeals
for Veterans Claims in No. 16-3738, Judge Michael
P. Allen, Judge Amanda L. Meredith, Judge Joseph
L. Toth.
______________________
Decided: October 15, 2019
______________________
WILLIAM H. MILLIKEN, Sterne Kessler Goldstein
& Fox, PLLC, Washington, DC, argued for claimantappellant. Also represented by MICHAEL E. JOFFRE.

2a
WILLIAM
JAMES
GRIMALDI,
Commercial
Litigation Branch, Civil Division, United States
Department of Justice, Washington, DC, argued for
respondent-appellee. Also represented by JOSEPH H.
HUNT, MARTIN F. HOCKEY, JR., ROBERT EDWARD
KIRSCHMAN, JR.; LARA EILHARDT, SAMANTHA ANN
SYVERSON, Y. KEN LEE, Office of General Counsel,
United States Department of Veterans Affairs,
Washington, DC.
______________________
Before PROST, Chief Judge, LOURIE and DYK,
Circuit Judges.
Opinion for the court filed by Circuit Judge DYK, in
which PROST, Chief Judge and LOURIE, Circuit
Judge, join.
Footnote 1 of the opinion is joined by PROST, Chief
Judge, NEWMAN, LOURIE, DYK, MOORE, O’MALLEY,
REYNA, WALLACH, TARANTO, CHEN, HUGHES, and
STOLL, Circuit Judges.
DYK, Circuit Judge.
Ernest L. Francway appeals from the Court of
Appeals for Veterans Claims’ (“Veterans Court’s”)
decision affirming the Board of Veterans’ Appeals’
(“Board’s”) denial of Francway’s claim for disability
compensation. We affirm.

3a
BACKGROUND
Francway served on active duty in the United
States Navy from August 1968 to May 1970. While
serving on an aircraft carrier in 1969, Francway
contends that he was “hit by a gust of wind while
carrying a set of wheel chocks” and “[t]he resulting
fall caused him to injure his back.” Francway Br. at
4. He contends he “was placed on bedrest for a week
and assigned to light duty for three months following
the incident.” Id. Francway claims that this injury is
connected to a current lower back disability, noting
that after his accident he was treated for back
problems while in service.
In April 2003, Francway filed a claim with the
Department of Veterans Affairs (“VA”) for service
connection for his back disability. Between 2003 and
2011, Francway was examined multiple times by an
orthopedist and had his medical records separately
reviewed by the orthopedist and an internist. They
concluded, along with a physician’s assistant that
examined Francway, that Francway’s current back
disability was not likely connected to his injury in
1969.
After multiple appeals to and from the Board and
remands back to the VA regional office (“RO”), in
2013, Francway sought to open his claim based on
new and material evidence from his longtime friend,
in a so-called “buddy statement,” attesting to
Francway’s history of lower back disability after his
injury in 1969. The Board again remanded the case
to the RO based on the allegations in the “buddy

4a
statement,” with instructions that Francway’s
“claims file should be reviewed by an appropriate
medical specialist for an opinion as to whether there
is at least a 50 percent probability or greater . . . that
he has a low back disorder as a result of active
service.” J.A. 1046 (emphasis added). The Board also
instructed that “[t]he examiner should reconcile any
opinion provided with the statements from
[Francway and his “buddy statement”] as to reported
episodes of back pain since active service.” Id.
(emphasis omitted).
In 2014, Francway was examined by the same
orthopedist who had examined him previously. The
orthopedist concluded that Francway’s current back
symptoms were unlikely to be related to his injury in
1969, but the orthopedist did not address the “buddy
statement.” Subsequently, the internist who had
previously provided the VA a medical opinion on
Francway’s disability reviewed Francway’s file and
the “buddy statement,” and concluded that it would
be speculative to say his current back symptoms
were related to his earlier injury. The RO again
denied Francway’s entitlement to benefits for his
back disability.
The Board concluded that there was insufficient
evidence of a nexus between Francway’s injury in
1969 and his current back disability and that the VA
had complied with the earlier remand orders.
Francway then appealed to the Veterans Court,
arguing for the first time that the internist who had
reviewed the “buddy statement” was not an
“appropriate medical specialist” within the meaning

5a
of the remand order. The Veterans Court held that
Francway had not preserved that claim because
Francway did not challenge the examiner’s
qualifications before the Board.
Francway appealed to this court. We have
jurisdiction pursuant to 38 U.S.C. § 7292(c). A
request for initial hearing en banc was denied.
Francway v. Wilkie, No. 18-2136 (Nov. 28, 2018),
ECF No. 30. We review questions of law de novo,
but, absent a constitutional issue, we “may not
review (A) a challenge to a factual determination, or
(B) a challenge to a law or regulation as applied to
the facts of a particular case.” 38 U.S.C. § 7292(d)(2).
DISCUSSION
I
Since 2009, we have held that the Board and
Veterans Court properly apply a presumption of
competency in reviewing the opinions of VA medical
examiners. See Rizzo v. Shinseki, 580 F.3d 1288,
1290–91 (Fed. Cir. 2009).
Francway first contends that the presumption of
competency is inconsistent with the VA’s duty to
assist veterans, see 38 U.S.C. § 5103A (requiring the
VA to assist veterans with benefit claims), and the
benefit-of-the-doubt rule, id. § 5107(b) (requiring the
VA to give the benefit of the doubt to the veteran
when the evidence is in approximate equipoise), and
that there is no statutory basis for the presumption.
We construe Francway’s continued argument as to
the illegitimacy of the presumption as a request for

6a
the panel to ask for an en banc hearing under
Federal Circuit Rule 35 to overturn Rizzo and
subsequent cases. 1 We decline to do so. We see no
reason for en banc review since the “presumption of
competency” is far narrower than Francway asserts
and is not inconsistent with the statutory scheme.
“The purpose of the [VA] is to administer the
laws providing benefits and other services to
veterans and the dependents and the beneficiaries of
veterans.” 38 U.S.C. § 301(b). In line with this
mandate, the VA processes claims for serviceconnected disability benefits sought by veterans, see,
e.g., id. §§ 1110, 1131, and, to perform this duty, the
VA relies on medical examiners who provide medical
examinations and medical opinions based on review
of the evidence in the record, id. § 5103A(d); 38
C.F.R. § 3.159(c)(4). Both the statute and
implementing regulations require that these medical
examinations and opinions be based on competent
medical evidence, defined, in relevant part, as
“evidence provided by a person who is qualified
through education, training, or experience to offer

The en banc court formed of PROST, Chief Judge,
NEWMAN, LOURIE, DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit Judges, has
determined that to the extent that the decision here is
inconsistent with Rizzo v. Shinseki, 580 F.3d 1288 (Fed. Cir.
2009), and Bastien v. Shinseki, 599 F.3d 1301 (Fed. Cir. 2010),
those cases are overruled. We note that in the future, the
requirement that the veteran raise the issue of the competency
of the medical examiner is best referred to simply as a
“requirement” and not a “presumption of competency.”
1

7a
medical diagnoses, statements, or opinions.” 38
C.F.R. § 3.159(a)(1).
The presumption of competency originated in our
decision in Rizzo. As we said in Rizzo, “[a]bsent some
challenge to the expertise of a VA expert, this court
perceives no statutory or other requirement that VA
must present affirmative evidence of a physician’s
qualifications in every case as a precondition for the
Board’s reliance upon that physician’s opinion.” 580
F.3d at 1291. Although it is referred to as the
presumption of competency, we have not treated this
concept as a typical evidentiary presumption
requiring the veteran to produce evidence of the
medical examiner’s incompetence. Instead, this
presumption is rebutted when the veteran raises the
competency issue.
The limited nature of the presumption has been
consistently recognized in our caselaw. Beginning
with Rizzo, we have held that “where . . . the veteran
does not challenge a VA medical expert’s competence
or qualifications before the Board,” the “VA need not
affirmatively establish that expert’s competency.” Id.
at 1291 (emphasis added); id. (“Absent some
challenge . . . .” (emphasis added)); id. (“Absent some
challenge . . . .”) (emphasis added)). Similarly, in
Sickels v. Shinseki, 643 F.3d 1362 (Fed. Cir. 2011),
we held that “when a veteran suspects a fault with
the medical examiner’s qualifications, it is
incumbent upon the veteran to raise the issue before
the Board.” Id. at 1365–66 (emphasis added). “[T]he
VA and Board are not required to affirmatively
establish competency of a medical examiner unless

8a
the issue is raised by the veteran.” Id. at 1366
(emphasis added). Our holding in Parks v. Shinseki,
716 F.3d 581 (Fed. Cir. 2013), is consistent with this
understanding. Although we noted that “[i]f an
objection is raised it may be necessary for the
veteran to provide information to overcome the
presumption,” id. at 585 (emphasis added), the
statement was referring to the specificity of the
challenge rather than requiring the veteran to
submit evidence that is within the control of the VA.
Francway contends that Rizzo held that the
veteran bears the burden of persuasion, or at least
production, of showing that the examiner was
incompetent. The only support for that contention is
a quote in Rizzo from the Veterans Court’s decision
in Cox v. Nicholson, 20 Vet. App. 563 (2007): “[T]he
appellant bears the burden of persuasion on appeals
to th[e Veterans] Court to show that such reliance
was in error.” Rizzo, 580 F.3d at 1290–91 (quoting
Cox, 20 Vet. App. at 569). First, the Veterans Court’s
language in Cox that Francway cites concerned the
veteran’s burden on appeal to show prejudicial error
with the Board’s decision and did not concern which
party bears the initial burden of demonstrating the
examiner’s competence or lack thereof. Second,
although the presumption of competency is based on
Rizzo and subsequent cases from our court, those
cases did not place the burden of persuasion or
evidentiary production on the veteran, as discussed
above.
The presumption of competency requires nothing
more than is required for veteran claimants in other

9a
contexts—simply a requirement that the veteran
raise the issue. The Supreme Court has implicitly
recognized that the veteran bears such a burden of
raising an issue in Shinseki v. Sanders, 556 U.S. 396
(2009). There, the Supreme Court noted the burden
placed on the claimant in ordinary litigation to raise
an issue and establish prejudicial error. Id. at 410.
When the Court held that the veteran bears the
burden of showing prejudicial error, it necessarily
assumed that the veteran bears the burden of
raising the claim of error in the first instance. See
id.; see also, e.g., Comer v. Peake, 552 F.3d 1362,
1368 (Fed. Cir. 2009) (“[A] veteran is obligated to
raise an issue in a notice of disagreement if he
wishes to preserve his right to assert that issue on
appeal . . . .”). There is nothing in the statute or its
interpretation that relieves the veteran from the
obligation to raise an issue in the first instance in
the general run of cases. 2
Here, once the veteran raises a challenge to the
competency of the medical examiner, the
presumption has no further effect, and, just as in
typical litigation, the side presenting the expert
(here the VA) must satisfy its burden of persuasion
as to the examiner’s qualifications. The Board must

We do not address the applicability of the presumption of
competency in cases where the veteran did not challenge the
examiner’s competence, but the record independently
demonstrates an irregularity in the process of selecting the
examiner. See VA Br. at 36 (citing Wise v. Shinseki, 26 Vet.
App. 517 (2014)) (conceding that the presumption would not
apply in such a situation).
2

10a
then make factual findings regarding the
qualifications and provide reasons and bases for
concluding whether or not the medical examiner was
competent to provide the opinion. 38 U.S.C.
§ 7104(d).
Since the veteran is obligated to raise the issue in
the first instance, the veteran must have the ability
to secure from the VA the information necessary to
raise the competency challenge. Once the request is
made for information as to the competency of the
examiner, the veteran has the right, absent unusual
circumstances, to the curriculum vitae and other
information about qualifications of a medical
examiner. This is mandated by the VA’s duty to
assist. See 38 U.S.C. § 5103A; Harris v. Shinseki,
704 F.3d 946, 948 (Fed. Cir. 2013) (collecting cases).
The VA agrees with this interpretation of the
presumption of competency and the VA’s duties. At
oral argument, the VA agreed that “[the
presumption] is not an evidentiary burden, it’s kind
of a burden to request [the examiner’s
qualifications].” Oral Arg. at 25:34–38. The VA also
recognized its burden to “substantively respond” to
the veteran’s challenge “[o]nce the veteran
[sufficiently] raises the issue” and that after a
challenge is raised “the VA can’t come in [to the
Board] and say we’re entitled to the presumption
that this person is competent and you have to
assume he is competent.” Oral Arg. at 32:29–42.
Then, as the VA notes, the Board has to “make a
decision as to whether the medical officer was

11a
actually competent and provide reasons and bases
explaining that decision.” Oral Arg. 28:50–29:02.
II
Francway alternatively contends that his brief to
the Board sufficiently raised the issue of the medical
examiner’s competency because it broadly argued
that the medical examinations and opinions were
inadequate. But “whether an examiner is competent
and whether he has rendered an adequate exam are
two separate inquiries.” Mathis v. McDonald, 834
F.3d 1347, 1351 (Fed. Cir. 2016) (Hughes, J.,
concurring in denial of rehearing en banc). The
Veterans Court found that Francway had not raised
the competency issue with sufficient clarity to the
Board. Based on the proper understanding of the
presumption of competency described above, we find
no legal error with the Veterans Court’s decision,
and we lack jurisdiction to determine whether the
Veterans Court’s decision is correct as a factual
matter.
III
Francway separately contends that this case is
distinguishable because the issue of the examiner’s
competency arose in the context of a remand order
from the Board requiring an “appropriate medical
specialist.” In such a situation, Francway argues
that the Board cannot presume the competency of
the selected examiner in a specialty because the
presumption is one of general medical competence
not one regarding an examiner’s expertise in various
specialties.

12a
We see no reason to distinguish between how the
presumption applies to “general” medical examiners
as compared to “specialists.” The presumption is that
the VA has properly chosen an examiner who is
qualified to provide competent medical evidence in a
particular case absent a challenge by the veteran.
Parks, 716 F.3d at 585; 38 C.F.R. § 3.159(c)(4). Here,
as noted above, Francway did not raise the issue of
the medical examiner’s competence before the Board
so the presumption applies. Thus, we see no legal
error in the Veterans Court’s decision affirming the
Board’s denial of Francway’s claim to compensation
for his back injury.
CONCLUSION
Because Francway did not challenge the medical
examiner’s qualifications before the Board, which is
all that the presumption of competency requires, we
do not find legal error with the Veterans Court’s
decision.
AFFIRMED
COSTS
No costs.

13a
APPENDIX B
United States Court of Appeals
for the Federal Circuit
______________________
ERNEST L. FRANCWAY, JR.,
Claimant-Appellant
v.
ROBERT WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
______________________
2018-2136
______________________
Appeal from the United States Court of Appeals
for Veterans Claims in No. 16-3738, Judge Michael
P. Allen, Judge Amanda L. Meredith, Judge Joseph
L. Toth.
______________________
Decided: July 23, 2019
______________________
WILLIAM H. MILLIKEN, Sterne Kessler Goldstein
& Fox, PLLC, Washington, DC, argued for claimantappellant. Also represented by MICHAEL E. JOFFRE.

14a
WILLIAM
JAMES
GRIMALDI,
Commercial
Litigation Branch, Civil Division, United States
Department of Justice, Washington, DC, argued for
respondent-appellee. Also represented by JOSEPH H.
HUNT, MARTIN F. HOCKEY, JR., ROBERT EDWARD
KIRSCHMAN, JR.; LARA EILHARDT, SAMANTHA ANN
SYVERSON, Y. KEN LEE, Office of General Counsel,
United States Department of Veterans Affairs,
Washington, DC.
______________________
Before PROST, Chief Judge, LOURIE and DYK,
Circuit Judges.
DYK, Circuit Judge.
Ernest L. Francway appeals from the Court of
Appeals for Veterans Claims’ (“Veterans Court’s”)
decision affirming the Board of Veterans’ Appeals’
(“Board’s”) denial of Francway’s claim for disability
compensation. We affirm.
BACKGROUND
Francway served on active duty in the United
States Navy from August 1968 to May 1970. While
serving on an aircraft carrier in 1969, Francway
contends that he was “hit by a gust of wind while
carrying a set of wheel chocks” and “[t]he resulting
fall caused him to injure his back.” Francway Br. at
4. He contends he “was placed on bedrest for a week
and assigned to light duty for three months following
the incident.” Id. Francway claims that this injury is
connected to a current lower back disability, noting

15a
that after his accident he was treated for back
problems while in service.
In April 2003, Francway filed a claim with the
Department of Veterans Affairs (“VA”) for service
connection for his back disability. Between 2003 and
2011, Francway was examined multiple times by an
orthopedist and had his medical records separately
reviewed by the orthopedist and an internist. They
concluded, along with a physician’s assistant that
examined Francway, that Francway’s current back
disability was not likely connected to his injury in
1969.
After multiple appeals to and from the Board and
remands back to the VA regional office (“RO”), in
2013, Francway sought to open his claim based on
new and material evidence from his longtime friend,
in a so-called “buddy statement,” attesting to
Francway’s history of lower back disability after his
injury in 1969. The Board again remanded the case
to the RO based on the allegations in the “buddy
statement,” with instructions that Francway’s
“claims file should be reviewed by an appropriate
medical specialist for an opinion as to whether there
is at least a 50 percent probability or greater . . . that
he has a low back disorder as a result of active
service.” J.A. 1046 (emphasis added). The Board also
instructed that “[t]he examiner should reconcile any
opinion provided with the statements from
[Francway and his “buddy statement”] as to reported
episodes of back pain since active service.” Id.
(emphasis omitted).

16a
In 2014, Francway was examined by the same
orthopedist who had examined him previously. The
orthopedist concluded that Francway’s current back
symptoms were unlikely to be related to his injury in
1969, but the orthopedist did not address the “buddy
statement.” Subsequently, the internist who had
previously provided the VA a medical opinion on
Francway’s disability reviewed Francway’s file and
the “buddy statement,” and concluded that it would
be speculative to say his current back symptoms
were related to his earlier injury. The RO again
denied Francway’s entitlement to benefits for his
back disability.
The Board concluded that there was insufficient
evidence of a nexus between Francway’s injury in
1969 and his current back disability and that the VA
had complied with the earlier remand orders.
Francway then appealed to the Veterans Court,
arguing for the first time that the internist who had
reviewed the “buddy statement” was not an
“appropriate medical specialist” within the meaning
of the remand order. The Veterans Court held that
Francway had not preserved that claim because
Francway did not challenge the examiner’s
qualifications before the Board.
Francway appealed to this court. We have
jurisdiction pursuant to 38 U.S.C. § 7292(c). A
request for initial hearing en banc was denied.
Francway v. Wilkie, No. 18-2136 (Nov. 28, 2018),
ECF No. 30. We review questions of law de novo,
but, absent a constitutional issue, we “may not
review (A) a challenge to a factual determination, or

17a
(B) a challenge to a law or regulation as applied to
the facts of a particular case.” 38 U.S.C. § 7292(d)(2).
DISCUSSION
I
Since 2009, we have held that the Board and
Veterans Court properly apply a presumption of
competency in re-viewing the opinions of VA medical
examiners. See Rizzo v. Shinseki, 580 F.3d 1288,
1290–91 (Fed. Cir. 2009).
Francway first contends that the presumption of
competency is inconsistent with the VA’s duty to
assist veterans, see 38 U.S.C. § 5103A (requiring the
VA to assist veterans with benefit claims), and the
benefit-of-the-doubt rule, id. § 5107(b) (requiring the
VA to give the benefit of the doubt to the veteran
when the evidence is in approximate equipoise), and
that there is no statutory basis for the presumption.
We construe Francway’s continued argument as to
the illegitimacy of the presumption as a request for
the panel to ask for an en banc hearing under
Federal Circuit Rule 35 to overturn Rizzo and
subsequent cases. 1 We decline to do so. We see no
reason for en banc review since the “presumption of

1 “Although only the court en banc may overrule a binding
precedent, a party may argue, in its brief and oral argument, to
overrule a binding precedent without petitioning for hearing en
banc. The panel will decide whether to ask the regular active
judges to consider hearing the case en banc.” Fed. Cir. R.
35(a)(1) (emphasis added).

18a
competency” is far narrower than Francway asserts
and is not inconsistent with the statutory scheme.
“The purpose of the [VA] is to administer the
laws providing benefits and other services to
veterans and the dependents and the beneficiaries of
veterans.” 38 U.S.C. § 301(b). In line with this
mandate, the VA processes claims for serviceconnected disability benefits sought by veterans, see,
e.g., id. §§ 1110, 1131, and, to perform this duty, the
VA relies on medical examiners who provide medical
examinations and medical opinions based on review
of the evidence in the record, id. § 5103A(d); 38
C.F.R. § 3.159(c)(4). Both the statute and
implementing regulations require that these medical
examinations and opinions be based on competent
medical evidence, defined, in relevant part, as
“evidence provided by a person who is qualified
through education, training, or experience to offer
medical diagnoses, statements, or opinions.” 38
C.F.R. § 3.159(a)(1).
The presumption of competency originated in our
decision in Rizzo. As we said in Rizzo, “[a]bsent some
challenge to the expertise of a VA expert, this court
perceives no statutory or other requirement that VA
must present affirmative evidence of a physician’s
qualifications in every case as a precondition for the
Board’s reliance upon that physician’s opinion.” 580
F.3d at 1291. Although it is referred to as the
presumption of competency, we have not treated this
concept as a typical evidentiary presumption
requiring the veteran to produce evidence of the
medical examiner’s incompetence. Instead, this

19a
presumption is rebutted when the veteran raises the
competency issue.
The limited nature of the presumption has been
consistently recognized in our caselaw. Beginning
with Rizzo, we have held that “where . . . the veteran
does not challenge a VA medical expert’s competence
or qualifications before the Board,” the “VA need not
affirmatively establish that expert’s competency.” Id.
at 1291 (emphasis added); id. (“Absent some
challenge . . . .” (emphasis added)); id. (“Absent some
challenge . . . .”) (emphasis added)). Similarly, in
Sickels v. Shinseki, 643 F.3d 1362 (Fed. Cir. 2011),
we held that “when a veteran suspects a fault with
the medical examiner’s qualifications, it is
incumbent upon the veteran to raise the issue before
the Board.” Id. at 1365–66 (emphasis added). “[T]he
VA and Board are not required to affirmatively
establish competency of a medical examiner unless
the issue is raised by the veteran.” Id. at 1366
(emphasis added). Our holding in Parks v. Shinseki,
716 F.3d 581 (Fed. Cir. 2013), is consistent with this
understanding. Although we noted that “[i]f an
objection is raised it may be necessary for the
veteran to provide information to overcome the
presumption,” id. at 585 (emphasis added), the
statement was referring to the specificity of the
challenge rather than requiring the veteran to
submit evidence that is within the control of the VA.
Francway contends that Rizzo held that the
veteran bears the burden of persuasion, or at least
production, of showing that the examiner was
incompetent. The only support for that contention is

20a
a quote in Rizzo from the Veterans Court’s decision
in Cox v. Nicholson, 20 Vet. App. 563 (2007): “[T]he
appellant bears the burden of persuasion on appeals
to th[e Veterans] Court to show that such reliance
was in error.” Rizzo, 580 F.3d at 1290–91 (quoting
Cox, 20 Vet. App. at 569). First, the Veterans Court’s
language in Cox that Francway cites concerned the
veteran’s burden on appeal to show prejudicial error
with the Board’s decision and did not concern which
party bears the initial burden of demonstrating the
examiner’s competence or lack thereof. Second,
although the presumption of competency is based on
Rizzo and subsequent cases from our court, those
cases did not place the burden of persuasion or
evidentiary production on the veteran, as discussed
above.
The presumption of competency requires nothing
more than is required for veteran claimants in other
contexts—simply a requirement that the veteran
raise the issue. The Supreme Court has implicitly
recognized that the veteran bears such a burden of
raising an issue in Shinseki v. Sanders, 556 U.S. 396
(2009). There, the Supreme Court noted the burden
placed on the claimant in ordinary litigation to raise
an issue and establish prejudicial error. Id. at 410.
When the Court held that the veteran bears the
burden of showing prejudicial error, it necessarily
assumed that the veteran bears the burden of
raising the claim of error in the first instance. See
id.; see also, e.g., Comer v. Peake, 552 F.3d 1362,
1368 (Fed. Cir. 2009) (“[A] veteran is obligated to
raise an issue in a notice of disagreement if he
wishes to preserve his right to assert that issue on

21a
appeal . . . .”). There is nothing in the statute or its
interpretation that relieves the veteran from the
obligation to raise an issue in the first instance in
the general run of cases. 2
Here, once the veteran raises a challenge to the
competency of the medical examiner, the
presumption has no further effect, and, just as in
typical litigation, the side presenting the expert
(here the VA) must satisfy its burden of persuasion
as to the examiner’s qualifications. The Board must
then make factual findings regarding the
qualifications and provide reasons and bases for
concluding whether or not the medical examiner was
competent to provide the opinion. 38 U.S.C. §
7104(d).
Since the veteran is obligated to raise the issue in
the first instance, the veteran must have the ability
to secure from the VA the information necessary to
raise the competency challenge. Once the request is
made for information as to the competency of the
examiner, the veteran has the right, absent unusual
circumstances, to the curriculum vitae and other
information about qualifications of a medical
examiner. This is mandated by the VA’s duty to

We do not address the applicability of the presumption of
competency in cases where the veteran did not challenge the
examiner’s competence, but the record independently
demonstrates an irregularity in the process of selecting the
examiner. See VA Br. at 36 (citing Wise v. Shinseki, 26 Vet.
App. 517 (2014)) (conceding that the presumption would not
apply in such a situation).
2

22a
assist. See 38 U.S.C. § 5103A; Harris v. Shinseki,
704 F.3d 946, 948 (Fed. Cir. 2013) (collecting cases).
The VA agrees with this interpretation of the
presumption of competency and the VA’s duties. At
oral argument, the VA agreed that “[the
presumption] is not an evidentiary burden, it’s kind
of a burden to request [the examiner’s
qualifications].” Oral Arg. at 25:34–38. The VA also
recognized its burden to “substantively respond” to
the veteran’s challenge “[o]nce the veteran
[sufficiently] raises the issue” and that after a
challenge is raised “the VA can’t come in [to the
Board] and say we’re entitled to the presumption
that this person is competent and you have to
assume he is competent.” Oral Arg. at 32:29–42.
Then, as the VA notes, the Board has to “make a
decision as to whether the medical officer was
actually competent and provide reasons and bases
explaining that decision.” Oral Arg. 28:50–29:02.
II
Francway alternatively contends that his brief to
the Board sufficiently raised the issue of the medical
examiner’s competency because it broadly argued
that the medical examinations and opinions were
inadequate. But “whether an examiner is competent
and whether he has rendered an adequate exam are
two separate inquiries.” Mathis v. McDonald, 834
F.3d 1347, 1351 (Fed. Cir. 2016) (Hughes, J.,
concurring in denial of rehearing en banc). The
Veterans Court found that Francway had not raised
the competency issue with sufficient clarity to the

23a
Board. Based on the proper understanding of the
presumption of competency described above, we find
no legal error with the Veterans Court’s decision,
and we lack jurisdiction to determine whether the
Veterans Court’s decision is correct as a factual
matter.
III
Francway separately contends that this case is
distinguishable because the issue of the examiner’s
competency arose in the context of a remand order
from the Board requiring an “appropriate medical
specialist.” In such a situation, Francway argues
that the Board cannot presume the competency of
the selected examiner in a specialty because the
presumption is one of general medical competence
not one regarding an examiner’s expertise in various
specialties.
We see no reason to distinguish between how the
presumption applies to “general” medical examiners
as compared to “specialists.” The presumption is that
the VA has properly chosen an examiner who is
qualified to provide competent medical evidence in a
particular case absent a challenge by the veteran.
Parks, 716 F.3d at 585; 38 C.F.R. § 3.159(c)(4). Here,
as noted above, Francway did not raise the issue of
the medical examiner’s competence before the Board
so the presumption applies. Thus, we see no legal
error in the Veterans Court’s decision affirming the
Board’s denial of Francway’s claim to compensation
for his back injury.

24a
CONCLUSION
Because Francway did not challenge the medical
examiner’s qualifications before the Board, which is
all that the presumption of competency requires, we
do not find legal error with the Veterans Court’s
decision.
AFFIRMED
COSTS
No costs.

25a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
______________________
ERNEST L. FRANCWAY, JR.,
Claimant-Appellant
v.
ROBERT WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
______________________
2018-2136
______________________
Appeal from the United States Court of Appeals
for Veterans Claims in No. 16-3738, Judge Michael
P. Allen, Judge Amanda L. Meredith, Judge Joseph
L. Toth.
______________________
SUA SPONTE REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.

26a
PER CURIAM.
ORDER
This case was argued before a panel of three
judges on June 6, 2019. A sua sponte request for a
poll on whether to consider this case en banc was
made. A poll was conducted, and the judges who are
in regular active service voted for sua sponte en banc
consideration.
Accordingly,
IT IS ORDERED THAT:
1. Rehearing en banc is granted for the limited
purpose of deleting footnote 1 and
accompanying text from the previous
precedential opinion and replacing it with a
new en banc footnote 1.
2. The previous precedential opinion, dated July
23, 2019, is hereby withdrawn and replaced
with the modified precedential opinion
attached to this order.

October 15, 2019
Date

FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

27a
APPENDIX D
Designated for electronic publication only
UNITED STATES COURT OF APPEALS FOR
VETERANS CLAIMS
No. 16-3738
ERNEST L. FRANCWAY, JR., APPELLANT,
V.
DAVID J. SHULKIN, M.D.,
SECRETARY OF VETERANS AFFAIRS, APPELLEE.
Before MEREDITH, Judge.
MEMORANDUM DECISION
Note: Pursuant to U.S. Vet. App. R. 30(a),
this action may not be cited as precedent.
MEREDITH, Judge: The appellant, Ernest L.
Francway, Jr., through counsel appeals an October
13, 2016, Board of Veterans’ Appeals (Board)
decision that denied entitlement to disability
compensation for a low back disability. Record (R.) at
1-16. This appeal is timely, and the Court has
jurisdiction to review the Board’s decision pursuant
to 38 U.S.C. §§ 7252(a) and 7266(a). Single-judge
disposition is appropriate. See Frankel v. Derwinski,

28a
1 Vet. App. 23, 25-26 (1990). For the following
reasons, the Court will affirm the Board’s October
13, 2016, decision.
I. BACKGROUND
The appellant served on active duty in the U.S.
Navy from August 1968 to May 1970. R. at 213.
Service treatment records show that the appellant
received medical treatment during service, including
for back pain. In November 1969, the appellant was
seen for a painful, swollen wrist, following a
motorcycle accident. R. at 91. On December 9, 1969,
the appellant was seen for low back pain on the right
side; he was given medication for pain relief,
instructed to treat his back with warm soaks, and
asked to return to sick call later that morning. Id.
Later that day, the appellant returned with the
same complaint of low back pain, and examination
revealed limited range of motion without pain, no
deformity, negative test for fracture, and some pain
on rotation. Id. On December 10, 1969, the appellant
was seen again for low back pain, and he reported
that symptoms first began on November 19 when he
was involved in a motor vehicle accident and that
the “present episode” began on December 8. R. at 92.
Examination revealed symptoms at L5-S1 without
radiation and on the right sacroiliac joint, and the
appellant was placed on light duty. Id.
A March 1978 report of medical examination for
the U.S. Naval Reserve revealed a normal back. R.
at 94-95. In a contemporaneous report of medical

29a
history, the appellant reported that he was in good
condition and denied currently having or having had
any recurrent back pain, but he disclosed currently
having or having had “[s]wollen or painful joints”
and a “‘[t]rick’ or locked knee.” R. at 96-97. He also
reported that he had been hospitalized after a
motorcycle accident in 1976 for surgical removal of
cartilage from his left knee and a bone fragment
from his right shoulder. R. at 97.
A March 1995 non-VA medical record reflects the
appellant’s complaint of back pain which started
after he lifted weights. R. at 2078.
An October 2002 VA treatment record reflects the
appellant’s complaint of arthritis in his shoulders
and hands and his denial of any other physical
complaints. R. at 1989-90. The record also noted the
1976 motor vehicle accident that resulted in a left
ankle sprain and surgical repair of a right shoulder
injury as well as a left knee injury. R. at 1989.
In April 2003, the appellant filed multiple claims
for VA benefits, including entitlement to disability
compensation for a “back injury on [his] left side
dated 5/69. . . . [sustained o]n the U.S.S. Oriskany.”
R. at 1995. In May 2003, a VA regional office (RO),
among other things, denied entitlement to disability
compensation for a back condition. R. at 1927-29. In
June 2003, the appellant filed a request “to reopen”
his prior claims, including for a back condition. R. at
1921. In January 2004, the RO “confirmed [the]
previous decision” denying the appellant’s claim. R.

30a
at 1883. The appellant timely perfected his appeal of
the denial. R. at 1855-57 (Mar. 2004 Substantive
Appeal), 1863-81 (Feb. 2004 Statement of the Case),
1882 (Feb. 2004 Notice of Disagreement).
In October 2005, the appellant testified at a
hearing before the Board, during which he stated
that he had injured his back on a flight deck when a
gust of wind knocked him over and he fell onto the
wheel chocks that he was carrying. R. at 1821. He
explained that he fell onto the chocks and injured his
abdomen, after which he was carried on a stretcher
to sickbay where he stayed for a couple of weeks. Id.
The appellant stated that he was diagnosed in
service with a muscle strain and that he was also
assigned to light duty for 3 months. R. at 1821-22.
The appellant denied receiving any treatment for his
back after service until he got a muscle cramp in
2004, which was treated with muscle relaxants. R. at
1822. Before 2004, the appellant stated that he
would treat his back pain by taking over-the-counter
medication and sick leave. R. at 1823-24. In January
2006, the Board remanded the claim for further
development. R. at 1800-05.
In May 2006, the appellant underwent a VA
examination, during which the appellant reported
that he had strained his back in 1969, which “took
about three months to go away,” after which he
experienced intermittent back pain that “got worse”
in 2004, when he was told that he may have
arthritis. R. at 1617. The examiner, an orthopedist,
diagnosed the appellant with lumbosacral strain,

31a
concluding that it is not likely that his current back
symptoms are related to “a simple strain back in
1969,
but
rather
a
natural[ly]
occurring
phenomenon.” Id. Contemporaneous diagnostic
testing revealed “[m]inimal arthritis” of the
lumbosacral spine. R. at 1618. In July 2007, the
appellant underwent another VA examination with
the same examiner, who diagnosed the appellant
with lumbosacral strain with minimal arthritis and
reiterated his opinion that this condition was not
related to service. R. at 1582. In August 2007, the
appellant sought medical treatment and disclosed
that he had been rear-ended in a motor vehicle
accident, after which he began to experience a stiff
neck and headache. R. at 1351.
In May 2009, the Board denied the appellant’s
claim of entitlement to disability compensation for a
low back disorder. R. at 1428-44. In September 2009,
the appellant appealed the Board’s decision to the
Court. R. at 1113. In December 2010, the parties
filed a joint motion for partial remand (JMPR), in
which they agreed that “it did not appear that [the
May 2006 and July 2007 VA] medical opinions
provided an adequate rationale for a fully-informed
decision by the Board” and that it was “unclear
whether the Board properly considered the adequacy
of . . . [these] examination reports.” R. at 1155, 1158.
Later that month, the Court granted the parties’
motion. R. at 1115. In May 2011, the Board
remanded the claim for further development. R. at
1073-79.

32a
In December 2011, the same examiner who
provided the May 2006 and July 2007 VA medical
opinions, upon review of the claims file, diagnosed
the appellant with spinal stenosis and opined that it
was “less likely than not related to service but
natural age progression.” R. at 1051. In January
2012, a different examiner, a VA internist, reviewed
the record and interviewed, but did not examine, the
appellant. R. at 1026, 1029. She noted that neither
the appellant’s narrative of his in-service back injury
nor his complaint of recurrent back pain after that
injury was reflected in his service treatment records.
R. at 1028. She also observed that the appellant had
made “various orthopedic complaints (knee,
shoulder) [in October 2002] but expressed no
complaint of back pain” until 2005, when he claimed
to have a history of chronic back pain, which she
further observed was not noted in his VA treatment
records or claims file. R. at 1028-29. Upon review of
the record and interview of the appellant, the
examiner diagnosed him with degenerative disk
disease (DDD), opining that spinal stenosis and
DDD are less likely than not related to “an acute
back strain that occurred more than 30 years prior
to his next back complaint and even further from the
time of a diagnosis of spinal stenosis.” R. at 1029.
In April 2012, the appellant underwent a VA
examination by a physician’s assistant. R. at 9971010. The examiner noted the appellant’s history of
motor vehicle accidents, both prior to service in 1964
and after service in 1976, as well his denial of any
back pain after those accidents. R. at 997. The

33a
appellant reported that he had low back pain in 1995
secondary to bending over to pick up a 10-pound
weight. Id. He further stated that he has had chronic
and constant low back pain since injuring his back in
service but, as observed by the examiner, he did not
report having received any medical treatment from
the time of his discharge from service until 1995; he
stated that his back pain was not formally addressed
until 2004 when he received VA treatment for his
back. R. at 998. The examiner opined:
There are no medical records of evidence
from 1970-2004 to establish a nexus
therefore it would be less likely than not that
the [appellant’s] spinal stenosis is related to
the injury he describes . . . . It would be more
likely than not [that] his spinal stenosis is
related to natural age progression with
consideration [of] wear and tear throughout
his life.
R. at 1009-10.
In January 2013, the appellant submitted a
statement dated November 2012 from a person, G.P.,
whom he had known since the 1970s. R. at 960-61.
G.P. stated that the appellant had told him he had
injured his back in service, that he had “seen [the
appellant] in some really bad pain,” that the
appellant had treated his back pain with over-thecounter medicine, and that the appellant has had
back pain since G.P. has known him. R. at 960. In
March 2013, the Board remanded the claim for
further development, to include a directive that the

34a
appellant’s claims file “should be reviewed by an
appropriate medical specialist for an opinion,” who,
among other things, “should reconcile any opinion
provided with the statements from the [appellant]
and G.P. as to reported episodes of back pain since
active service.” R. at 958.
In September 2014, the appellant underwent
another VA medical examination with the same
examiner who provided the May 2006, July 2007,
and December 2011 VA medical opinions. R. at 37684. The examiner diagnosed the appellant with
lumbosacral strain and spinal stenosis, concluding
that “it is less likely that his current [spinal]
stenosis is related to one eve[n]t over 40 years ago
but rather natural age progression.” R. at 377, 38384.
In March 2015, a VA addendum opinion was
provided by the same examiner who wrote the
January 2012 VA opinion. R. at 347-48. After
reviewing the appellant’s claims file, VA treatment
records, and the lay statement of G.P., the examiner
opined:
While it is possible that the [appellant]
injured or developed disease in his spine
after his military service, it’s not possible to
relate post-service conditions to the selflimited back strain documented in service
without resorting to speculation. It is a rare
service member or civilian who does not, at
one time or another, experience a self-limited
musculoskeletal back strain. However, one

35a
such event does not qualify as a chronic
condition or cause spinal stenosis or any
other
disease.
[G.P.’s]
[]
statement
confirming back pain during the 1970s and
thereafter is insufficient to establish the
existence of an initial in-service condition
that would cause the symptoms and findings
occu[r]ring after the service.
R. at 347-48.
On October 13, 2016, the Board denied the
appellant’s claim for disability compensation for a
low back disability. R. at 1-16. This appeal followed.
II. ANALYSIS
The appellant argues, essentially, that the Board
erred in (1) relying upon medical opinions that are
inadequate and failed to substantially comply with
the Board’s prior remand directives, and (2) failing
to provide adequate reasons or bases in support of its
finding that lay statements by the appellant and
G.P. carried less probative value than other evidence
of record. Appellant’s Brief (Br.) at 11-19; Reply Br.
at 5-11. The Secretary contends that the Board
properly relied upon adequate medical opinions,
which substantially complied with prior remands,
and that it provided sufficient reasons or bases in
assigning less probative value to the lay statements
of the appellant and G.P. Secretary’s Br. at 8-24.

36a
A. Duty To Assist
“[O]nce the Secretary undertakes the effort to
provide an examination [or opinion] when developing
a service connection claim, . . . he must provide an
adequate one.” Barr v. Nicholson, 21 Vet. App. 303,
311 (2007). A medical examination or opinion is
adequate “where it is based upon consideration of
the
veteran’s
prior
medical
history
and
examinations,” Stefl v. Nicholson, 21 Vet. App. 120,
123 (2007), “describes the disability, if any, in
sufficient detail so that the Board’s ‘evaluation of the
claimed disability will be a fully informed one,’” id.
(quoting Ardison v. Brown, 6 Vet. App. 405, 407
(1994)) (internal quotation marks omitted), and
“sufficiently inform[s] the Board of a medical
expert’s judgment on a medical question and the
essential rationale for that opinion,” Monzingo v.
Shinseki, 26 Vet. App. 97, 105 (2012) (per curiam).
The law does not impose any reasons-or-bases
requirements on medical examiners and the
adequacy of medical reports must be based upon a
reading of the report as a whole. Id. at 105-06.
Additionally, a remand by the Board or this
Court “confers on the [appellant] . . . , as a matter of
law, the right to compliance with the remand
orders,” and the Board errs when it fails to ensure
compliance with the terms of such a remand. Stegall
v. West, 11 Vet. App. 268, 271 (1998). Although the
Secretary is required to comply with remand orders,
it is substantial compliance, not strict compliance,
that is required. See Dyment v. West, 13 Vet. App.
141, 146-47 (1999) (holding that there was no Stegall

37a
violation when the examiner made the ultimate
determination required by the Board’s remand,
because
such
determination
“more
than
substantially complied with the Board’s remand
order”), aff’d sub nom. Dyment v. Principi, 287 F.3d
1377 (Fed. Cir. 2002); Evans v. West, 12 Vet. App. 22,
31 (1998) (holding that remand was not warranted
because the Secretary substantially complied with
the Board’s remand order).
The Board’s determination of whether there was
substantial compliance with a remand and
“[w]hether a medical [examination] or opinion is
adequate [are] finding[s] of fact, which the Court
reviews under the ‘clearly erroneous’ standard.”
D’Aries v. Peake, 22 Vet. App. 97, 104 (2008) (per
curiam); see Gill v. Shinseki, 26 Vet. App. 386, 39192 (2013) (reviewing the Board’s finding of
substantial compliance for clear error), aff’d per
curiam sub nom. Gill v. McDonald, 589 F. App’x 535
(Fed. Cir. 2015). A finding of fact is clearly erroneous
when the Court, after reviewing the entire evidence,
“is left with the definite and firm conviction that a
mistake has been committed.” United States v. U.S.
Gypsum Co., 333 U.S. 364, 395 (1948); see Gilbert v.
Derwinski, 1 Vet. App. 49, 52 (1990). As with any
material issue of fact or law, the Board must provide
a statement of the reasons or bases for its
determination “adequate to enable a claimant to
understand the precise basis for the Board’s
decision, as well as to facilitate review in this Court.”
Allday v. Brown, 7 Vet. App. 517, 527 (1995); see 38
U.S.C. § 7104(d)(1); Gilbert, 1 Vet. App. at 56-57.

38a
The Board found that VA had satisfied its duty to
assist. The Board concluded that the VA opinions it
relied upon were adequate in all respects:
The April 2012 examiner provided a
complete rationale based upon a review of
the claims file and a physical examination.
The March 2015 examiner conducted an
additional review of the claims file, including
lay statements and medical records, and
provided a detailed medical opinion based on
the history and findings. The VA examiners
provided detailed rationales and cited
supporting data for their conclusions.
R. at 4-5. In addition, the Board determined that
“the development ordered in the May 2011 and
March 2013 remands has been completed, and no
further action is necessary to comply with the
remand directives” under Stegall, 11 Vet. App. at
271. R. at 3.
Ultimately, the Board denied the appellant’s
claim based, in part, on the opinions of the “April
2012 and March 2015 VA examiners [who] opined
that the [appellant’s] current low back disability is
not likely related to service.” R. at 11. The Board
observed again that the opinions were supported by
review of the appellant’s claims file, specifically
finding that their medical opinions were “competent
and highly probative, and based on adequate
rationales.” Id. The Board further observed: “The

39a
April 2012 examiner found that it was unlikely that
spinal stenosis is related to the [appellant’s]
described in-service injuries. The March 2015
examiner concluded that back strain in service does
not qualify as a chronic condition and would not
cause spinal stenosis.” Id. Based upon the foregoing,
the Board concluded that there was “no competent
evidence of a medical nexus between the current low
back disability and an incident of service.” Id.
The appellant has submitted various arguments
in support of his position that the April 2012 VA
examination report and the March 2015 VA
addendum opinion are each separately inadequate
and that they failed to substantially comply with the
Board’s March 2013 remand. However, as shown
above, the Board relied on these opinions
collectively, not individually, to determine that VA
had satisfied its duty to assist and to find “no
competent evidence of a medical nexus between the
current low back disability and an incident in
service.” R. at 11; see R. at 4-5.
The appellant first argues that the April 2012 VA
examination report and the March 2015 VA
addendum opinion are not supported by adequate
rationales. With respect to the April 2012 VA
examination, the appellant asserts that the opinion
was not supported by an adequate rationale in
compliance with “the terms of the prior remand in
which the parties agreed that future medical
examinations or opinions must provide more
clarity . . . and a more robust rationale than a simple
statement that a nexus is unlikely because a

40a
particular diagnosed back condition is a naturally
occurring phenomenon.” Appellant’s Br. at 13
(emphasis added); Reply Br. at 2. With respect to the
March 2015 VA addendum, the appellant argues
that the opinion “is nonsensical and unresponsive to
the medical questions presented,” Appellant’s Br. at
14-15, and that “the . . . examiner’s rationale did not
make any sense,” Reply Br. at 3. In particular, the
appellant appears to take issue with the March 2015
examiner’s rationale that (1) the appellant’s inservice back strain does not qualify as a chronic
condition or cause spinal stenosis or any other
disease and (2) G.P.’s statements concerning the
appellant’s back pain are “insufficient to establish
the existence” of a condition that would cause any
current low back disability. Reply Br. at 3; see
Appellant’s Br. at 14-15.
The appellant’s arguments that the VA medical
opinions in question lacked sufficient rationale are
not persuasive. Although the Board did not provide
an extensive explanation for its finding that the
examiners provided detailed rationales, the
appellant provides no specific analysis in support of
his general contention that the April 2012 examiner
did not provide a robust rationale that complied with
the terms of the JMPR. Appellant’s Br. at 13.
Without more, his argument amounts to a
disagreement with the Board’s assessment of the
evidence, which is insufficient to demonstrate that
the Board’s findings were clearly erroneous. See
D’Aries, 22 Vet. App. at 104. Similarly, with respect
to the March 2015 VA opinion, it is clear from the
Board’s decision that the Board understood the basis

41a
for the examiner's negative nexus opinion—the
appellant's in-service “self-limited back strain . . . .
does not qualify as a chronic condition or cause
spinal stenosis or any other disease” and G.P.'s
“statement confirming back pain in the 1970[s] and
thereafter is insufficient to establish the existence of
an initial in-service condition that would cause the
symptoms and findings occurring after service.” R. at
10. The Board found that the examiner supported
her conclusion with a “detailed rationale” and “data,”
R. at 5, and the Court finds that the appellant's
arguments to the contrary amount to no more than a
disagreement with the opinion as well as the Board's
reliance upon it to find no evidence of a nexus
between the appellant's current low back disability
and an in-service incident. See D’Aries, 22 Vet. App.
at 104.
The appellant next argues that the April 2012
examiner failed to consistently diagnose the
appellant with lumbar strain or DDD and provide a
nexus opinion for those disabilities, Appellant’s Br.
at 13; Reply Br. at 2, 7. However, the appellant fails
to cite any legal authority supporting the argument
that VA examiners must provide consistent
diagnoses. Moreover, the Court is not convinced that
any error in this regard is prejudicial in light of the
Court’s determination that the Board did not err in
relying on the March 2015 opinion that it is “not
possible to relate post-service conditions to the selflimited back strain documented in service without
resorting to speculation. . . . [because] one such event
does not qualify as a chronic condition or cause
spinal stenosis or any other disease,” R. at 347-48.

42a
Additionally, the appellant maintains that the
April 2012 examiner could not have substantially
complied with the March 2013 remand directive that
the examiner address a January 2013 statement by
G.P., because the examination predated G.P.’s
statement. Appellant’s Br. at 14. As a result, he
contends that the opinion was “not based on all
pertinent evidence” and lacks all probative value.
Reply Br. at 3, 7-8. However, the Board’s March
2013 remand was directed at obtaining a new
opinion to address the appellant’s and G.P.’s
statements regarding episodes of back pain since
service, see R. at 958, which the Board in the
decision on appeal found was accomplished by the
March 2015 VA addendum opinion. R. at 3; see R. at
5 (noting that the March 2015 examiner reviewed
“lay statements”), 10 (noting that the examiner
addressed the January 2013 statement). Moreover,
the appellant fails to provide legal support for his
contention that the April 2012 opinion would lack all
probative value on this basis alone, especially
considering that, as the Board noted, the appellant
had directly reported to the examiner that he
experienced chronic and constant low back pain
since discharge. See R. at 998; see also Monzingo, 26
Vet. App. at 107 (noting, “even if a medical opinion is
inadequate to decide a claim,” it may be entitled to
some probative weight “based upon the amount of
information and analysis it contains”).
Finally, the appellant asserts that the Board
failed to ensure substantial compliance with the
March 2013 remand directive that an opinion
“should be [obtained] by an appropriate medical

43a
specialist” because the March 2015 examiner, a VA
internist, is “not an appropriate medical specialist to
provide an opinion on a back disorder like an
orthopedic surgeon.” Appellant’s Br. at 14; Reply Br.
at 6. Although the Board found substantial
compliance with the March 2011 and March 2013
remands, R. at 3 (citing Stegall, 11 Vet. App. at 271),
it did not specifically address whether the March
2015 examiner was an appropriate medical
specialist.
Initially, the Court notes that “VA benefits from a
presumption that it has properly chosen a person
who is qualified to provide a medical opinion in a
particular case,” Parks v. Shinseki, 716 F.3d 581,
585 (Fed. Cir. 2013) (citing Sickels v. Shinseki, 643
F.3d 1362, 1366 (Fed. Cir. 2011)), and the appellant
does not argue, nor does the record reflect, that he
raised this issue below. Additionally, the appellant
does not assert that the record itself reasonably
raises some irregularity 10 in VA’s selection process.
Cf. Wise v. Shinseki, 26 Vet. App. 517, 525-27 (2014)
(holding that the presumption of competence does
not attach where the face of the examination report
reveals some irregularity in the selection of the
examiner). Thus, the Board was not required to
provide a statement of reasons or bases establishing
the medical examiner’s competence before relying on
her opinion. See Rizzo v. Shinseki, 580 F.3d 1288,
1291-92 (Fed. Cir. 2009) (holding that the Board is
not required to affirmatively establish the
competence of a medical examiner, unless the
veteran raises the issue); see also Parks, 716 F.3d at
585-86 (holding that the appellant waived his right

44a
to rebut the presumption that a nurse practitioner
selected by VA was competent because the appellant
never challenged the examiner’s competence before
the Board).
However, even assuming the appellant is not
precluded from raising this issue for the first time on
appeal, the appellant fails to demonstrate prejudicial
error because he fails to explain why an internal
medicine specialist may not qualify as “an
appropriate medical specialist,” given the Board’s
broad and nonspecific request for an “appropriate
medical specialist,” and thus fails to explain how or
why the March 2015 opinion does not substantially
comply with the Board’s request. See Dyment, 13
Vet. App. at 146-47; see also D’Aries, 22 Vet. App. at
104-05 (noting that Stegall requires substantial “not
strict compliance,” and affirming the Board’s
determination that obtaining an expert opinion from
a neurologist substantially complied with VA’s
request for an opinion by an “‘internal medicine
specialist’”).
For the reasons stated above, the Court is not
persuaded by the appellant’s arguments on appeal. 3

The Court declines to address the appellant’s additional
arguments—raised for the first time in his reply brief—
challenging the adequacy of the March 2015 examiner’s
opinion. See Reply Br. at 8. The Court has consistently
discouraged parties from raising new arguments after the
initial briefing. See Carbino v. West, 168 F.3d 32, 34 (Fed. Cir.
1999) (“[I]mproper or late presentation of an issue or argument
. . . ordinarily should not be considered.”), aff’g sub nom.
Carbino v. Gober, 10 Vet. App. 507, 511 (1997) (declining to
3

45a
Berger v. Brown, 10 Vet. App. 166, 169 (1997) (the
appellant “always bears the burden of persuasion”);
see Hilkert v. West, 12 Vet. App. 145, 151 (1999) (en
banc), aff’d per curiam, 232 F.3d 908 (Fed. Cir. 2000)
(table). The Court finds that the appellant’s
arguments are undeveloped or lacking support in
legal authority and therefore do not satisfy his
burden of persuasion on appeal to show Board error.
See Coker v. Nicholson, 19 Vet. App. 439, 442 (2006)
(per curiam) (“The Court requires that an appellant
plead with some particularity the allegation of error
so that the Court is able to review and assess the
validity of the appellant’s arguments.”), vacated on
other grounds sub nom. Coker v. Peake, 310 F. App’x.
371 (Fed. Cir. 2008) (per curiam order); see also
Locklear v. Nicholson, 20 Vet. App. 410, 416 (2006)
(holding that the Court is unable to find error when
arguments are undeveloped); U.S. VET. APP. R.
28(a)(5).
Additionally, the appellant has failed to meet his
burden of demonstrating that the Board committed
prejudicial error. See Shinseki v. Sanders, 556 U.S.
396, 409 (2009) (holding that harmless-error
analysis applies to the Court’s review of Board
decisions and that the burden is on the appellant to
show that he suffered prejudice as a result of VA
error); see also Coker, 19 Vet. App. at 442.

review argument first raised in appellant’s reply brief);
Untalan v. Nicholson, 20 Vet. App. 467, 471 (2006); Fugere v.
Derwinski, 1 Vet. App. 103, 105 (1990).

46a
B. Evidentiary Findings
It is the Board’s duty, as factfinder, to determine
the credibility and weight to be given to the
evidence. Washington v. Nicholson, 19 Vet. App. 362,
367-68 (2005); Owens v. Brown, 7 Vet. App. 429, 433
(1995) (holding that the Board is responsible for
assessing the credibility and weight of evidence and
that the Court may overturn the Board’s decision
only if it is clearly erroneous). This duty includes
assessing the probative value of medical evidence.
See Nieves-Rodriguez v. Peake, 22 Vet. App. 295, 302
(2008) (“Part of the Board’s consideration of how
much weight to assign [a medical opinion] is the
foundation upon which the medical opinion is
based.”). As with any material issue of fact or law,
the Board must provide a statement of the reasons
or bases for its determination “adequate to enable a
claimant to understand the precise basis for the
Board’s decision, as well as to facilitate review in
this Court.” Allday, 7 Vet. App. at 527; see 38 U.S.C.
§ 7104(d)(1); Gilbert, 1 Vet. App. at 56-57.
In its decision, the Board found the following:
[T]he [appellant’s] statements made in
connection with a claim for VA compensation
benefits [are] to be of lesser probative value
than his more contemporaneous history,
including medical records showing that he
sought treatment for other complaints but
did not report back pain and the absence of
complaints or treatment for many years after
service. The lay statement of G.P. regarding
the [appellant’s] complaints of back pain

47a
symptoms since the 1970’s is likewise
considered
less
probative
than
the
contemporaneous medical records which
indicate that the [appellant] denied
recurrent back pain.
R. at 11-12.
The appellant argues that the Board provided
insufficient reasons or bases for finding that the lay
statements of the appellant and G.P. were
outweighed by other evidence. Appellant’s Br. at 1718; Reply Br. at 9-10. Specifically, the appellant
maintains that the Board “considered and rejected
favorable evidence” from the appellant and G.P. and
relied upon the “absence of medical 12 evidence of
treatment or complaints of a back disorder since
service . . . .[, although n]one of these factors relate
in any way to the observations in the certified
statement made by [G.P.].” Appellant’s Br. at 17.
The appellant also contends that “the Board did not
cite to any other contemporaneous medical record in
which [the appellant] denied recurrent back pain.”
Reply Br. at 9-10.
The Court is not persuaded by the appellant’s
arguments on appeal. Berger, 10 Vet. App. at 169;
see Hilkert, 12 Vet. App. at 151. As shown above, the
Board, in assigning the lay statements lesser
probative
value
concerning
continuity
of
symptomatology, did not “reject” the contested lay
statements. Rather, the Board’s analysis reflects
that it deemed the appellant’s statements less
probative because the “more contemporaneous
history, including medical records” did not reflect

48a
continuous complaints, reports, or treatment for
back pain for many years after service. R. at 11
(emphasis added). See Buchanan v. Nicholson, 451
F.3d 1331, 1337 (Fed. Cir. 2006) (noting it was not
ruling out that the Board may “weigh the absence of
contemporaneous medical evidence against the lay
evidence of record”). Additionally, the Board ascribed
lesser probative value to G.P.’s statements
concerning the appellant’s back symptoms because
contemporaneous medical records, i.e., the 1978
examination, showed that the appellant denied
recurrent back pain after discharge from service. See
id. The appellant cites no legal authority requiring
the Board to cite to additional contemporaneous
medical evidence, other than the March 1978 report
of medical history and report of medical
examination, in order to find G.P.’s statements of
lower probative value. The Court finds that the
reasons or bases provided by the Board are sufficient
and clearly explain its findings. See Allday, 7 Vet.
App. at 527; see 38 U.S.C. § 7104(d)(1); Gilbert, 1
Vet. App. at 56-57. Moreover, as maintained by the
Secretary, the appellant’s arguments amount to
mere disagreement with how the Board weighed the
evidence. Secretary’s Br. at 23.
III. CONCLUSION
After consideration of the parties’ pleadings and a
review of the record, the Board’s October 13, 2016,
decision is AFFIRMED.
DATED: February 6, 2018

49a
Copies to:
Sean A. Ravin, Esq.
VA General Counsel (027)

50a
APPENDIX E
Designated for electronic publication only
NON-PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR VETERANS CLAIMS
NO. 16-3738
ERNEST L. FRANCWAY, JR.

APPELLANT,

V.
ROBERT L. WILKIE,
ACTING SECRETARY OF
VETERANS AFFAIRS,

APPELLEE.

Before ALLEN, MEREDITH, and TOTH, Judges.
ORDER
Note: Pursuant to U.S. Vet. App. R. 30(a),
this action may not be cited as precedent.
On February 6, 2018, the Court issued a
memorandum decision that affirmed the October 13,
2016, Board of Veterans’ Appeals (Board) decision
that denied entitlement to disability compensation
for a low back disability. On February 27, 2018, the
appellant filed a motion for panel decision pursuant
to Rule 35 of the Court’s Rules of Practice and
Procedure. The motion for a panel decision will be
granted.

51a
Based on review of the pleadings and the record
of proceedings, it is the decision of the panel that the
appellant fails to demonstrate that 1) the singlejudge memorandum decision overlooked or
misunderstood a fact or point of law prejudicial to
the outcome of the appeal, 2) there is any conflict
with precedential decisions of the Court, or 3) the
appeal otherwise raises an issue warranting a
precedential decision. U.S. VET. APP. R. 35(e); see
also Frankel v. Derwinski, 1 Vet. App. 23, 25-26
(1990).
Absent further motion by the parties or order by
the Court, judgment will enter on the underlying
single-judge decision in accordance with Rules 35
and 36 of the Court’s Rules of Practice and
Procedure.
Upon consideration of the foregoing, it is
ORDERED that the motion for panel decision is
granted. It is further
ORDERED that the single-judge memorandum
decision remains the decision of the Court.
DATED: May 3, 2018

PER CURIAM.

52a
Copies to:
Sean A. Ravin, Esq.
VA General Counsel (027)

53a
APPENDIX F
BOARD OF VETERANS’ APPEALS
DEPARTMENT OF VETERANS AFFAIRS
WASHINGTON, DC 20420
IN THE APPEAL OF
ERNEST L. FRANCWAY, JR.
DOCKET NO.
04-09 153

) DATE
) October 13,
) 2016
TDV

On appeal from the
Department of Veterans Affairs Regional Office in
Cleveland, Ohio
THE ISSUE
Entitlement to service connection for a low
back disability.
REPRESENTATION
Veteran represented by: Sean A. Ravin, Attorney
WITNESS AT HEARING ON APPEAL
Veteran
ATTORNEY FOR THE BOARD

54a
Catherine Cykowski, Counsel
INTRODUCTION
The Veteran had active service from August 1968 to
May 1970.
This matter comes before the Board of Veterans’
Appeals (Board) on appeal from May 2003 rating
decision of the Department of Veterans (VA)
Regional Office (RO) in Cleveland, Ohio.
In October 2005, the Veteran testified at a
videoconference hearing before the undersigned
Veterans Law Judge. A transcript of the hearing is
of record.
In a May 2009 decision, the Board denied service
connection for lumbosacral strain. The Veteran
appealed the Board’s decision to the United States
Court of Appeals for Veterans’ Claims. In December
2010, the Court granted a Joint Motion for Partial
Remand and remanded the case to the Board for
action consistent with the Joint Motion.
The case was previously remanded in May 2011 and
March 2013. In May 2011, the Board remanded the
case to obtain a VA examination. A VA examination
was obtained in April 2012. The claim was remanded
in March 2013 to obtain an addendum medical
opinion. A medical opinion was obtained in March
2015. The Board finds that the development ordered
in the May 2011 and March 2013 remands has been

55a
completed, and no further action is necessary to
comply with the remand directives. Stegall v. West,
11 Vet. App. 268, 271 (1998).
FINDING OF FACT
A chronic low back disorder to include arthritis of
the lumbar spine did not manifest during service or
within one year of separation from service, and a
current low back disability is not causally related to
any disease, injury or event in active service.
CONCLUSION OF LAW
The criteria for service connection for a low back
disability have not been met. 38 U.S.C.A. §§ 1110,
1112, 1113, 5103, 5103A, 5107 (West 2014); 38
C.F.R. §§ 3.303, 3.307, 3.309 (2015).
REASONS AND BASES FOR
FINDING AND CONCLUSION
Duties to Notify and Assist
As provided for by the Veterans Claims Assistance
Act (VCAA), VA has a duty to notify and assist
claimants in substantiating a claim for VA benefits.
38 U.S.C.A. §§ 5100, 5102, 5103, 5103A, 5107, 5126
(West 2014); 38 C.F.R. §§ 3.102, 3.156(a), 3.159 and
3.326(a) (2015). A VCAA letter was sent to the
Veteran in July 2003 and in July 2006.

56a
VA also has a duty to assist the Veteran in the
development of the claim. This duty includes
assisting the Veteran in the procurement of service
medical records and pertinent treatment records and
providing an examination when necessary. 38
U.S.C.A. § 5103A; 38 C.F.R. § 3.159. The record
indicates that the RO obtained all information
relevant to the Veteran’s claim. The service
treatment records have been obtained, as well as
post-service VA and private treatment records. The
RO requested medical records from the Social
Security Administration. A negative response was
received in June 2011. In October 2011, the RO
issued a formal finding of unavailability for records
from the Social Security Administration. No
additional effort is warranted to try and obtain
Social Security records, as it appears that any such
additional efforts would be futile. 38 C.F.R.
§ 3.159(c)(2).
The Veteran had a VA examination in April 2012,
and an addendum opinion was obtained in March
2015. When VA undertakes to provide a VA
examination or obtain a VA opinion, it must ensure
that the opinion is adequate. Barr v. Nicholson, 21
Vet. App. 303, 312 (2007). The April 2012 examiner
provided a complete rationale based upon a review of
the claims file and a physical examination. The
March 2015 examiner conducted an additional
review of the claims file, including lay statements
and medical records, and provided a detailed medical
opinion based on the history and findings. The VA
examiners provided detailed rationales and cited

57a
supporting data for their conclusions. Accordingly,
the Board finds that VA’s duty to assist with respect
to obtaining a VA examination or opinion has been
met. 38 C.F.R. § 3.159(c)(4).
Furthermore, as noted, the Veteran was afforded a
Board hearing in October 2005. The Veterans Law
Judge and the Veteran’s representative outlined the
issues on appeal, and the Veteran and
representative engaged in a colloquy as to
substantiation of the claims, including identifying
relevant types of evidence. Overall, the hearing was
legally sufficient and the duty to assist has been
met. 38 U.S.C.A. § 5103A (West 2014); Bryant v.
Shinseki, 23 Vet. App. 488 (2010).
The Board finds that all necessary development has
been accomplished, and therefore appellate review
may proceed without prejudice to the Veteran. No
further notice or assistance to the Veteran is
required to fulfill VA’s duty to assist the Veteran in
the development of the claim. Smith v. Gober, 14
Vet. App. 227 (2000), aff’d 281 F.3d 1384 (Fed. Cir.
2002); Dela Cruz v. Principi, 15 Vet. App. 143 (2001);
see also Quartuccio v. Principi, 16 Vet. App. 183
(2002).
Service Connection Criteria
Service connection will be granted if it is shown that
the veteran suffers from disability resulting from an
injury suffered or disease contracted in line of duty,
or for aggravation of a preexisting injury suffered or
disease contracted in line of duty, in the active

58a
military, naval, or air service. 38 U.S.C.A. § 1110; 38
C.F.R. § 3.303(a). Service connection may also be
granted for any disease diagnosed after discharge,
when all the evidence, including that pertinent to
service, establishes that the disease was incurred in
service. 38 C.F.R. § 3.303(d). As a general matter,
service connection for a disability requires evidence
of: (1) the existence of a current disability; (2) the
existence of the disease or injury in service, and; (3)
a relationship or nexus between the current
disability and any injury or disease during service.
Shedden v. Principi, 381 F.3d 1163 (Fed. Cir. 2004);
see also Hickson v. West, 12 Vet. App. 247, 253
(1999), citing Caluza v. Brown, 7 Vet. App. 498, 506
(1995), aff’d, 78 F.3d 604 (Fed. Cir. 1996).
The Veteran has been diagnosed with degenerative
changes of the lumbar spine. Arthritis is a chronic
disease listed under 38 C.F.R. § 3.309(a); therefore,
the theory of continuity of symptomatology under 38
C.F.R. § 3.303(b) applies to the claim for service
connection for a low back disability. Walker v.
Shinseki, 708 F.3d 1331 (Fed. Cir. 2013).
Where the evidence shows a “chronic disease” in
service or “continuity of symptoms” after service, the
disease shall be presumed to have been incurred in
service. For the showing of “chronic” disease in
service, there is required a combination of
manifestations sufficient to identify the disease
entity, and sufficient observation to establish
chronicity at the time. With chronic disease as such
in service, subsequent manifestations of the same

59a
chronic disease, at any later date, however remote,
are service connected, unless clearly attributable to
intercurrent causes. If a condition noted during
service is not shown to be chronic, then generally a
showing of “continuity of symptoms” after service is
required for service connection. 38 C.F.R. § 3.303(b).
Additionally, where a veteran served 90 days or
more of active service, and certain chronic diseases,
such as arthritis, became manifest to a degree of 10
percent or more within one year after the date of
separation from such service, such disease shall be
presumed to have been incurred in or aggravated by
service, even though there is no evidence of such
disease during the period of service. 38 U.S.C.A. §§
1101, 1112, 1113, 1137 (West 2014); 38 C.F.R. §§
3.307, 3.309(a). While the disease need not be
diagnosed within a presumptive period, it must be
shown, by acceptable medical or lay evidence, that
there were characteristic manifestations of the
disease to the required degree during that time. Id.
Competency of evidence differs from weight and
credibility. The former is a legal concept determining
whether testimony may be heard and considered by
the trier of fact, while credibility is a factual
determination going to the probative value of the
evidence to be made after the evidence has been
admitted. Rucker v. Brown, 10 Vet. App. 67, 74
(1997); Layno v. Brown, 6 Vet. App. 465, 469 (1994);
see also Cartright v. Derwinski, 2 Vet. App. 24, 25
(1991) (“although interest may affect the credibility

60a
of testimony, it does not affect competency to
testify”).
In determining whether service connection is
warranted for a disability, VA is responsible for
determining whether the evidence supports the
claim or is in relative equipoise, with the veteran
prevailing in either event, or whether a
preponderance of the evidence is against the claim,
in which case the claim must be denied. 38 U.S.C.A.
§ 5107(b); 38 C.F.R. § 3.102, Gilbert v. Derwinski, 1
Vet. App. 49 (1990).
The Veteran asserts that his current low back
disability is related to incidents in service including
motor vehicle accidents and other incidents. In his
service connection claim, the Veteran noted a left
sided stomach and back injury during service. At the
Board hearing, the Veteran testified that he was on
the flight deck carrying wheel chocks when he was
hit by a gust of wind. The Veteran testified that he
had pain in his back and dropped the chocks. He
testified that he was treated for a muscle strain and
was given pain pills and put on light duty for three
months.
Service treatment records reflect complaints of
abdominal pain and back pain. The Veteran was
seen in April 1969 with a complaint of a pulled
muscle in the right side. He was put on light duty for
24 hours. An entry the following day noted that the
Veteran was working on the flight deck lifting the
pulley when he got sharp pain in the left lower

61a
abdomen. The Veteran complained of vomiting dark
red-black blood. He was admitted to the ward and
was discharged after four days.
Service treatment records show that the Veteran
complained of right side low back pain in December
1969. Examination showed no deformity, and a test
for fracture was negative. There was some pain on
rotation. The Veteran was instructed to return the
following day. An entry the next day noted low back
pain, with first symptoms in November 1969. The
record indicates that the Veteran was placed on light
duty. Service treatment records do not include other
complaints or findings regarding the low back.
There is no evidence that arthritis of the lumbar
spine manifested to a compensable degree within one
year of separation from service in May 1970.
Therefore, service connection for arthritis may not be
presumed. 38 C.F.R. §§ 3.307, 3.309.
A reserve enlistment examination dated in March
1978 reflects that the Veteran denied recurrent back
pain.
Initial post-service treatment of back pain is shown
in private treatment records dated in March 1995.
Those records reflect that the Veteran reported flank
and back pain. The record noted that the Veteran
was lifting weights before the pain started.
A VA treatment record dated in October 2002
reflects that the Veteran complained of arthritis of
his shoulders and his hands. He denied other

62a
physical complaints. Such histories reported by the
Veteran for treatment purposes are of significant
probative value particularly when compared with
more recent assertions and histories given for VA
disability compensation purposes. See Rucker v.
Brown, 10 Vet. App. 67, 73 (1997).
VA treatment records dated in May 2004 show that
the Veteran reported back pain for years. The
Veteran reported that he initially injured his back on
the flight deck in 1969. A physician assessed acute
on chronic muscular pain, low back. VA treatment
records dated in January 2005 and July 2005 reflect
assessments of acute on chronic low back pain,
ongoing since 1969. An August 2009 VA spine care
consultation reflects that the Veteran reported back
pain traveling down his legs. The record noted that
the Veteran related the onset of the pain to an
incident in service.
The Veteran had a VA examination in May 2006.
The Veteran reported a strain injury of his back in
1969. He reported intermittent episodes of back pain
over the years. The examiner diagnosed back strain.
The examiner opined that it is not likely that his
current back symptoms are related to a simple strain
in 1969, but rather a natural phenomenon.
At a July 2007 VA examination, the examiner noted
that the Veteran had a strain in service and had
persistent back pain over the years. The examiner
noted that he now had minimal arthritis by x-ray.
The examiner noted that he had a chronic back pain
problem. The examiner stated that the opinion was

63a
not changed from May 2006. The examiner noted
that the Veteran’s back pain is not likely related but
is a naturally occurring phenomenon.
In the December 2010 Joint Motion, the parties
found that the May 2006 and July 2007 opinions
were inadequate because the examinations did not
provide adequate rationales to allow for a fully
informed decision by the Board. The May 2006 and
July 2007 medical opinions are therefore not
probative regarding the issue of a medical nexus to
service.
Upon VA examination in April 2012, the Veteran
reported that he injured his back in 1969 while
walking across a flight deck carrying wheel chocks.
He reported that he was hit by wind, causing him to
fall. He recalled immediate pain to his low back and
his abdomen at the time of the fall. He reported that
he was taken off the flight deck by stretcher and
remained on bedrest for a week. He reported that he
was on light duty for 90 days after that. The Veteran
reported that he was later diagnosed with a hernia
to the left side of the abdomen. He reported chronic
and constant low back pain since his discharge from
service in 1970.
The examiner diagnosed spinal stenosis. The
examiner noted that records did not describe any
treatment until 1995, when the Veteran developed
pain in the area of his hernia radiating to his back.
The Veteran reported that his pain was constant and
chronic in nature. The examiner noted that there are

64a
no medical records from 1970 to 2004 to establish a
nexus. The examiner opined that it is therefore less
likely than not that the Veteran’s spinal stenosis is
related to the injury described. The examiner opined
that it would be more likely that his spinal stenosis
is related to natural age progression with
consideration of wear and tear throughout his life.
In January 2013, the Veteran submitted a lay
statement from G.P. G.P. stated that he has known
the Veteran since the 1970’s. G.P. stated that the
Veteran has had back problems since he has known
him. G.P. indicated that he working as a mechanic at
a gas station when the Veteran came and said that
he could not work on his car because of his back.
G.P. noted that the Veteran stated that he hurt his
back in the service. G.P. noted that he has witnessed
the Veteran’s back pain over the years when the
Veteran visited his home.
In March 2013, the Board remanded the claim for an
addendum medical opinion to address the lay
evidence from the Veteran and G.P. as to the
reported episodes of back pain since service.
In March 2015, a physician reviewed the claims file
and provided an addendum opinion. The examiner
noted that there were two references to back pain in
the service treatment records in December 1969. The
examiner noted that the Veteran reported one
episode of back pain, which was treated as muscle
strain. The episode began in November 1969 and
reached its peak in December. The examiner stated,
in other words, the Veteran had an acute to subacute

65a
episode of back pain in service, lasting
approximately two to three weeks. The examiner
noted that such an event is extremely common in the
general population. The examiner opined that the
evidence in the service treatment records is
consistent with the normal clinical picture of low
back pain and strain, which typically resolves within
a few weeks. The examiner noted that the Veteran
was examined twice in a short period of time, and
the diagnosis was confirmed. The examiner stated
that, based on this evidence, there was no reason to
suspect a severe injury or chronic condition, and
there was no evidence of spinal stenosis. The
examiner opined that, while it is possible that the
Veteran injured or developed disease in his spine
after military service, it is not possible to relate postservice conditions to the self-limited back strain
documented in service without resorting to
speculation. The examiner opined that it is a rare
service member or civilian who does not at one time
or another experience a self-limited musculoskeletal
back strain. The examiner opined, however, that one
such event does not qualify as a chronic condition or
cause spinal stenosis or any other disease. The
examiner opined that a buddy statement confirming
back pain in the 1970’s and thereafter is insufficient
to establish the existence of an initial in-service
condition that would cause the symptoms and
findings occurring after service.
The April 2012 and March 2015 VA examiners
opined that the Veteran’s current low back disability
is not likely related to service. The examiners

66a
provided a detailed rationale for the opinion based
on a review of Veteran’s claims file, including service
treatment records, post-service medical records and
lay statements. The April 2012 examiner found that
it was unlikely that spinal stenosis is related to the
Veteran’s described in-service injuries. The March
2015 examiner concluded that back strain in service
does not qualify as a chronic condition and would not
cause spinal stenosis. The discussion of the
underlying rationale is where most of the probative
value of an opinion is derived. See Nieves-Rodriguez
v. Peake, 22 Vet. App. 295, 304 (2008). The probative
value of an opinion is dependent, in part, upon the
extent to which it reflects “clinical data or other
rationale to support [the] opinion.” Bloom v. West, 12
Vet. App. 185, 187 (1999). The Board finds that the
April 2012 and March 2015 medical opinions are
competent and highly probative, and based on
adequate rationales. There is no competent evidence
of a medical nexus between the current low back
disability and an incident of service.
The post-service medical evidence does not reflect
complaints or treatment related to a low back
disability until 1995. See Maxson v. Gober, 230 F.3d
1330, 1333 (Fed. Cir. 2000) (lengthy period of
absence of medical complaints for condition can be
considered as a factor in resolving claim); see also
Mense v. Derwinski, 1 Vet. App. 354, 356 (1991)
(affirming Board’s denial of service connection where
veteran failed to account for lengthy time period
between service and initial symptoms of disability).

67a
The Board has weighed the lay evidence provided by
G.P. and the Veteran as to continuity of his low back
symptomatology. The Board finds the Veteran’s
statements made in connection with a claim for VA
compensation benefits to be of lesser probative value
than his more contemporaneous history, including
medical records showing that he sought treatment
for other complaints but did not report back pain and
the absence of complaints or treatment for many
years after service. The lay statement of G.P.
regarding the Veteran’s complaints of back pain
symptoms since the 1970’s is likewise considered less
probative than the contemporaneous medical records
which indicate that the Veteran denied recurrent
back pain.
A Veteran is competent to report symptoms that he
experiences at any time because this requires only
personal knowledge as it comes to him through his
senses. Layno, 6 Vet. App. at 470; Barr v. Nicholson,
21 Vet. App. 303, 309 (2007) (when a condition may
be diagnosed by its unique and readily identifiable
features, the presence of the disorder is not a
determination “medical in nature” and is capable of
lay observation). The Veteran is competent to report
experiencing back pain. However, the Board must
determine whether the Veteran is credible.
The absence of contemporaneous medical evidence is
a factor in determining credibility of lay evidence,
but lay evidence does not lack credibility merely
because it is unaccompanied by contemporaneous
medical evidence. See Buchanan v. Nicholson, 451
F.3d 1331, 1337 (Fed. Cir. 2006) (lack of

68a
contemporaneous medical records does not serve as
an “absolute bar” to the service connection claim);
Barr v. Nicholson, 21 Vet. App. 303 (2007) (“Board
may not reject as not credible any uncorroborated
statements merely because the contemporaneous
medical evidence is silent as to complaints or
treatment for the relevant condition or symptoms”).
But in Buchanan and other precedent cases, the
United States Court of Appeals for the Federal
Circuit (Federal Circuit Court) also has recognized
the Board’s “authority to discount the weight and
probity of evidence in light of its own inherent
characteristics and its relationship to other items of
evidence.” See, e.g., Madden v. Gober, 125 F.3d 1477,
1481 (Fed. Cir. 1997). Moreover, for non-combat
Veterans providing non-medical related lay
testimony regarding an event during service and
what has occurred during the years since, Buchanan
is distinguishable; any lack of documentation in
service records and/or records since service must be
weighed against the Veteran’s statements. See
Bardwell v. Shinseki, 24 Vet. App. 36 (2010).
In determining whether statements submitted by a
Veteran are credible, the Board may consider
internal consistency, facial plausibility, consistency
with other evidence, and statements made during
treatment. Caluza v. Brown, 7 Vet. App. 498 (1995).
See also Macarubbo v. Gober, 10 Vet. App. 388
(1997).
In statements as part of the current VA disability
compensation claim, the Veteran has asserted that
his symptoms of low back pain began during service

69a
and continued since then. However, the March 1978
reserves enlistment examination reflects that he
denied recurrent back pain. The Veteran also did not
report back pain when he was first seen at the VA in
October 2002, despite complaining of several other
orthopedic conditions. The Board finds that the
Veteran’s reported history of continued low back
symptoms since active service is inconsistent with
the other lay and medical evidence of record. These
inconsistencies in the record weigh against the
Veteran’s credibility as to the assertion of continuity
of symptomatology since service. See Madden, supra.
The post-service medical evidence does not reflect
complaints or treatment related to a low back
disability for many years following active service.
See Maxson and Mensa, both supra. The Board has
weighed the lay evidence as to continuity of low back
symptomatology and finds his statements made in
connection with a claim for VA compensation
benefits to be of lesser probative value than his
previous more contemporaneous history, and the
absence of complaints or treatment for years after
service.
The Veteran himself has asserted that his current
low back disability is related to events in service.
While the Veteran believes that his current low back
disability, was incurred in or is etiologically related
to his active service, he is not competent to provide a
nexus in this case. The issues are medically complex
and require specialized knowledge and experience.
Jandreau v. Nicholson, 492 F.3d 1372 (Fed. Cir.
2007).

70a
Based on a review of the above evidence, the Board
finds that service connection for a low back condition
is not warranted. The evidence of record does not
show that arthritis of the lumbar spine manifested
within the one year presumptive period after service
separation. The record does not contain competent
evidence of a nexus to service, and the lay evidence
of continuity of low back symptoms since service is
not considered persuasive. Accordingly, the Board
finds that the preponderance of the evidence is
against the Veteran’s claim for service connection for
a low back disorder. Consequently, the benefit-ofthe-doubt rule does not apply, and entitlement to
service connection for a low back condition is denied.
See 38 U.S.C.A. § 5107 (b); 38 C.F.R. §§ 3.102; 4.3;
Gilbert, 1 Vet. App. at 55.

ORDER
Service connection for a low back disability is denied.

____________________________________________
S. L. Kennedy
Veterans Law Judge, Board of Veterans’ Appeals

71a
APPENDIX G
Title 38 U.S.C. 5103A provides as follows:
(a) Duty To Assist.—
(1) The Secretary shall make reasonable efforts to
assist a claimant in obtaining evidence necessary
to substantiate the claimant’s claim for a benefit
under a law administered by the Secretary.
(2) The Secretary is not required to provide
assistance to a claimant under this section if no
reasonable possibility exists that such assistance
would aid in substantiating the claim.
(3) The Secretary may defer providing assistance
under this section pending the submission by the
claimant of essential information missing from
the claimant’s application.
(b) Assistance in Obtaining Private Records.—
(1) As part of the assistance provided under
subsection (a), the Secretary shall make
reasonable efforts to obtain relevant private
records that the claimant adequately identifies to
the Secretary.
(2)
(A) Whenever the Secretary, after making such
reasonable efforts, is unable to obtain all of the
relevant records sought, the Secretary shall
notify the claimant that the Secretary is

72a
unable to obtain records with respect to the
claim. Such a notification shall—
(i)identify the records the Secretary is
unable to obtain;
(ii)briefly explain the efforts that the
Secretary made to obtain such records; and
(iii)explain that the Secretary will decide the
claim based on the evidence of record but
that this section does not prohibit the
submission of records at a later date if such
submission is otherwise allowed.
(B) The Secretary shall make not less than two
requests to a custodian of a private record in
order for an effort to obtain relevant private
records to be treated as reasonable under this
section, unless it is made evident by the first
request that a second request would be futile in
obtaining such records.
(3)
(A) This section shall not apply if the evidence
of record allows for the Secretary to award the
maximum benefit in accordance with this title
based on the evidence of record.
(B) For purposes of this paragraph, the term
“maximum benefit” means the highest
evaluation assignable in accordance with the
evidence of record, as long as such evidence is
adequate for rating purposes and sufficient to

73a
grant the earliest possible effective date in
accordance with section 5110 of this title.
(4)

Under regulations prescribed
Secretary, the Secretary—

by

the

(A) shall encourage claimants to submit
relevant private medical records of the
claimant to the Secretary if such submission
does not burden the claimant; and
(B) in obtaining relevant private records
under paragraph (1), may require the
claimant to authorize the Secretary to obtain
such records if such authorization is required
to comply with Federal, State, or local law.
(c) Obtaining Records for Compensation Claims.—
(1) In the case of a claim for disability
compensation, the assistance provided by the
Secretary under this section shall include
obtaining the following records if relevant to the
claim:
(A) The claimant’s service medical records
and, if the claimant has furnished the
Secretary information sufficient to locate such
records, other relevant records pertaining to
the claimant’s active military, naval, or air
service that are held or maintained by a
governmental entity.

74a
(B) Records of relevant medical treatment or
examination of the claimant at Department
health-care facilities or at the expense of the
Department, if the claimant furnishes
information sufficient to locate those records.
(C) Any other relevant records held by any
Federal department or agency that the
claimant adequately identifies and authorizes
the Secretary to obtain.
(2) Whenever the Secretary attempts to obtain
records from a Federal department or agency
under this subsection, the efforts to obtain those
records shall continue until the records are
obtained unless it is reasonably certain that such
records do not exist or that further efforts to
obtain those records would be futile.
(d)

Medical Examinations
Claims.—

for

Compensation

(1) In the case of a claim for disability
compensation, the assistance provided by the
Secretary under subsection (a) shall include
providing a medical examination or obtaining a
medical opinion when such an examination or
opinion is necessary to make a decision on the
claim.
(2) The Secretary shall treat an examination or
opinion as being necessary to make a decision on
a claim for purposes of paragraph (1) if the
evidence of record before the Secretary, taking

75a
into consideration all information and lay or
medical evidence (including statements of the
claimant)—
(A) contains competent evidence that the
claimant has a current disability, or persistent
or recurrent symptoms of disability; and
(B) indicates that the disability or symptoms
may be associated with the claimant’s active
military, naval, or air service; but
(C) does not contain sufficient medical
evidence for the Secretary to make a decision
on the claim.
(e) Applicability of Duty to Assist.—
(1) The Secretary’s duty to assist under this
section shall apply only to a claim, or
supplemental claim, for a benefit under a law
administered by the Secretary until the time that
a claimant is provided notice of the agency of
original jurisdiction’s decision with respect to
such claim, or supplemental claim, under section
5104 of this title.
(2) The Secretary’s duty to assist under this
section shall not apply to higher-level review by
the agency of original jurisdiction, pursuant to
section 5104B of this title, or to review on appeal
by the Board of Veterans’ Appeals.

76a
(f) Correction of Duty to Assist Errors.—
(1) If, during review of the agency of original
jurisdiction decision under section 5104B of this
title, the higher-level adjudicator identifies or
learns of an error on the part of the agency of
original jurisdiction to satisfy its duties under
this section, and that error occurred prior to the
agency of original jurisdiction decision being
reviewed, unless the Secretary may award the
maximum benefit in accordance with this title
based on the evidence of record, the higher-level
adjudicator shall return the claim for correction
of such error and readjudication.
(2)
(A) If the Board of Veterans’ Appeals, during
review on appeal of an agency of original
jurisdiction decision, identifies or learns of an
error on the part of the agency of original
jurisdiction to satisfy its duties under this
section, and that error occurred prior to the
agency of original jurisdiction decision on
appeal, unless the Secretary may award the
maximum benefit in accordance with this title
based on the evidence of record, the Board
shall remand the claim to the agency of
original jurisdiction for correction of such
error and readjudication.
(B) Remand for correction of such error may
include directing the agency of original

77a
jurisdiction to obtain an advisory medical
opinion under section 5109 of this title.
(3)Nothing in this subsection shall be construed
to imply that the Secretary, during the
consideration of a claim, does not have a duty to
correct an error described in paragraph (1) or (2)
that was erroneously not identified during
higher-level review or during review on appeal
with respect to the claim.
(g)Regulations.—
The Secretary shall prescribe regulations to carry
out this section.
(h)Rule With Respect to Disallowed Claims.—
Nothing in this section shall be construed to require
the Secretary to readjudicate a claim that has been
disallowed except when new and relevant evidence is
presented or secured, as described in section 5108 of
this title.
(i)Other Assistance Not Precluded.—
Nothing in this section shall be construed as
precluding the Secretary from providing such other
assistance under subsection (a) to a claimant in
substantiating a claim as the Secretary considers
appropriate.

78a
Title 38 U.S.C. 5107 provides as follows:
(a) Claimant Responsibility.—
Except as otherwise provided by law, a claimant has
the responsibility to present and support a claim for
benefits under laws administered by the Secretary.
(b) Benefit of the Doubt.—
The Secretary shall consider all information and lay
and medical evidence of record in a case before the
Secretary with respect to benefits under laws
administered by the Secretary. When there is an
approximate balance of positive and negative
evidence regarding any issue material to the
determination of a matter, the Secretary shall give
the benefit of the doubt to the claimant.

79a
Title 38 CFR 3.159 provides as follows:
(a) Definitions. For purposes of this section, the
following definitions apply:
(1) Competent medical evidence means evidence
provided by a person who is qualified through
education, training, or experience to offer medical
diagnoses, statements, or opinions. Competent
medical evidence may also mean statements
conveying sound medical principles found in
medical treatises. It would also include
statements contained in authoritative writings
such as medical and scientific articles and
research reports or analyses.
(2) Competent lay evidence means any evidence
not requiring that the proponent have specialized
education, training, or experience. Lay evidence
is competent if it is provided by a person who has
knowledge of facts or circumstances and conveys
matters that can be observed and described by a
lay person.
(3) Substantially complete application means an
application containing:
(i) The claimant's name;
(ii) His or her relationship to the veteran, if
applicable;
(iii) Sufficient service information for VA to
verify the claimed service, if applicable;

80a
(iv) The benefit sought and any medical
condition(s) on which it is based;
(v) The claimant's signature; and
(vi) In claims for nonservice-connected
disability or death pension and parents'
dependency and indemnity compensation, a
statement of income;
(vii) In supplemental claims, identification or
inclusion of potentially new evidence (see §
3.2501);
(viii) For higher-level reviews, identification of
the date of the decision for which review is
sought.
(4) For purposes of paragraph (c)(4)(i) of this
section, event means one or more incidents
associated with places, types, and circumstances
of service giving rise to disability.
(5) Information means non-evidentiary facts,
such as the claimant's Social Security number or
address; the name and military unit of a person
who served with the veteran; or the name and
address of a medical care provider who may have
evidence pertinent to the claim.
(b) VA's duty to notify claimants of necessary
information or evidence.
(1) Except as provided in paragraph (3) of this
section, when VA receives a complete or

81a
substantially complete initial or supplemental
claim, VA will notify the claimant of any
information and medical or lay evidence that is
necessary to substantiate the claim (hereafter in
this paragraph referred to as the “notice”) In the
notice, VA will inform the claimant which
information and evidence, if any, that the
claimant is to provide to VA and which
information and evidence, if any, that VA will
attempt to obtain on behalf of the claimant. The
information and evidence that the claimant is
informed that the claimant is to provide must be
provided within one year of the date of the notice.
If the claimant has not responded to the notice
within 30 days, VA may decide the claim prior to
the expiration of the one-year period based on all
the information and evidence contained in the
file, including information and evidence it has
obtained on behalf of the claimant and any VA
medical examinations or medical opinions. If VA
does so, however, and the claimant subsequently
provides the information and evidence within one
year of the date of the notice in accordance with
the requirements of paragraph (b)(4) of this
section, VA must readjudicate the claim.
(Authority: 38 U.S.C. 5103)
(2) If VA receives an incomplete application for
benefits, it will notify the claimant of the
information necessary to complete the application
and will defer assistance until the claimant
submits this information.

82a
(Authority: 38 U.S.C. 5102(b), 5103A(3))
(3) No duty to provide the notice described in
paragraph (b)(1) of this section arises:
(i) Upon receipt of a supplemental claim under
§ 3.2501 within one year of the date VA issues
notice of a prior decision;
(ii) Upon receipt of a request for higher-level
review under § 3.2601;
(iii) Upon receipt of a Notice of Disagreement
under § 20.202 of this chapter; or
(iv) When, as a matter of law, entitlement to
the benefit claimed cannot be established.
(Authority: 38 U.S.C. 5103(a), 5103A(a)(2))
(4) After VA has issued a notice of decision,
submission of information and evidence
substantiating a claim must be accomplished
through the proper filing of a review option in
accordance with § 3.2500 on a form prescribed by
the Secretary. New and relevant evidence may be
submitted in connection with either the filing of a
supplemental claim under § 3.2501 or the filing of
a Notice of Disagreement with the Board under
38 CFR 20.202, on forms prescribed by the
Secretary, and election of a Board docket that
permits the filing of new evidence (see 38 CFR
20.302 and 20.303).

83a
(c) VA's duty to assist claimants in obtaining
evidence. VA has a duty to assist claimants in
obtaining evidence to substantiate all substantially
complete initial and supplemental claims, and when
a claim is returned for readjudication by a higherlevel adjudicator or the Board after identification of
a duty to assist error on the part of the agency of
original jurisdiction, until the time VA issues notice
of a decision on a claim or returned claim. VA will
make reasonable efforts to help a claimant obtain
evidence necessary to substantiate the claim. VA will
not pay any fees charged by a custodian to provide
records requested. When a claim is returned for
readjudication by a higher-level adjudicator or the
Board after identification of a duty to assist error,
the agency of original jurisdiction has a duty to
correct any other duty to assist errors not identified
by the higher-level adjudicator or the Board.
(1) Obtaining records not in the custody of a
Federal department or agency. VA will make
reasonable efforts to obtain relevant records not
in the custody of a Federal department or agency,
to include records from State or local
governments, private medical care providers,
current or former employers, and other nonFederal governmental sources. Such reasonable
efforts will generally consist of an initial request
for the records and, if the records are not
received, at least one follow-up request. A followup request is not required if a response to the
initial request indicates that the records sought
do not exist or that a follow-up request for the

84a
records would be futile. If VA receives
information showing that subsequent requests to
this or another custodian could result in
obtaining the records sought, then reasonable
efforts will include an initial request and, if the
records are not received, at least one follow-up
request to the new source or an additional
request to the original source.
(i) The claimant must cooperate fully with
VA's reasonable efforts to obtain relevant
records
from
non-Federal
agency
or
department custodians. The claimant must
provide enough information to identify and
locate the existing records, including the
person, company, agency, or other custodian
holding the records; the approximate time
frame covered by the records; and, in the case
of medical treatment records, the condition for
which treatment was provided.
(ii) If necessary, the claimant must authorize
the release of existing records in a form
acceptable to the person, company, agency, or
other custodian holding the records.
(Authority: 38 U.S.C. 5103A(b))
(2) Obtaining records in the custody of a Federal
department or agency. VA will make as many
requests as are necessary to obtain relevant
records from a Federal department or agency.
These records include but are not limited to
military records, including service medical

85a
records; medical and other records from VA
medical facilities; records from non-VA facilities
providing examination or treatment at VA
expense; and records from other Federal
agencies,
such
as
the
Social
Security
Administration. VA will end its efforts to obtain
records from a Federal department or agency
only if VA concludes that the records sought do
not exist or that further efforts to obtain those
records would be futile. Cases in which VA may
conclude that no further efforts are required
include those in which the Federal department or
agency advises VA that the requested records do
not exist or the custodian does not have them.
(i) The claimant must cooperate fully with
VA's reasonable efforts to obtain relevant
records from Federal agency or department
custodians. If requested by VA, the claimant
must provide enough information to identify
and locate the existing records, including the
custodian or agency holding the records; the
approximate time frame covered by the
records; and, in the case of medical treatment
records, the condition for which treatment was
provided. In the case of records requested to
corroborate a claimed stressful event in
service,
the
claimant
must
provide
information sufficient for the records
custodian to conduct a search of the
corroborative records.
(ii) If necessary, the claimant must authorize
the release of existing records in a form

86a
acceptable to the custodian or agency holding
the records.
(Authority: 38 U.S.C. 5103A(b))
(3) Obtaining records in compensation claims. In
a claim for disability compensation, VA will make
efforts to obtain the claimant's service medical
records, if relevant to the claim; other relevant
records pertaining to the claimant's active
military, naval or air service that are held or
maintained by a governmental entity; VA medical
records or records of examination or treatment at
non-VA facilities authorized by VA; and any other
relevant records held by any Federal department
or agency. The claimant must provide enough
information to identify and locate the existing
records including the custodian or agency holding
the records; the approximate time frame covered
by the records; and, in the case of medical
treatment records, the condition for which
treatment was provided.
(Authority: 38 U.S.C. 5103A(c))
(4) Providing medical examinations or obtaining
medical opinions.
(i) In a claim for disability compensation, VA
will provide a medical examination or obtain a
medical opinion based upon a review of the
evidence of record if VA determines it is
necessary to decide the claim. A medical
examination or medical opinion is necessary if

87a
the information and evidence of record does
not contain sufficient competent medical
evidence to decide the claim, but:
(A) Contains competent lay or medical
evidence of a current diagnosed disability
or persistent or recurrent symptoms of
disability;
(B) Establishes that the veteran suffered
an event, injury or disease in service, or
has a disease or symptoms of a disease
listed in § 3.309, § 3.313, § 3.316, and §
3.317 manifesting during an applicable
presumptive period provided the claimant
has the required service or triggering event
to qualify for that presumption; and
(C) Indicates that the claimed disability or
symptoms may be associated with the
established event, injury, or disease in
service or with another service-connected
disability.
(ii) Paragraph (4)(i)(C) could be satisfied by
competent evidence showing post-service
treatment for a condition, or other possible
association with military service.
(iii) For requests to reopen a finally
adjudicated claim received prior to the
effective date provided in § 19.2(a) of this
chapter, this paragraph (c)(4) applies only if

88a
new and material evidence is presented or
secured as prescribed in § 3.156.
(iv) This paragraph (c)(4) applies to a
supplemental claim only if new and relevant
evidence under § 3.2501 is presented or
secured.
(Authority: 38 U.S.C. 5103A(d))
(d) Circumstances where VA will refrain from or
discontinue providing assistance. VA will refrain
from providing assistance in obtaining evidence for
an initial or supplemental claim if the substantially
complete application for benefits indicates that there
is no reasonable possibility that any assistance VA
would provide to the claimant would substantiate
the claim. VA will discontinue providing assistance
in obtaining evidence for a claim if the evidence
obtained indicates that there is no reasonable
possibility
that
further
assistance
would
substantiate the claim. Circumstances in which VA
will refrain from or discontinue providing assistance
in obtaining evidence include, but are not limited to:
(1) The claimant's ineligibility for the benefit
sought because of lack of qualifying service, lack
of veteran status, or other lack of legal eligibility;
(2) Claims that are inherently incredible or
clearly lack merit; and
(3) An application requesting a benefit to which
the claimant is not entitled as a matter of law.

89a
(Authority: 38 U.S.C. 5103A(a)(2))
(e) Duty to notify claimant of inability to obtain
records.
(1) If VA makes reasonable efforts to obtain
relevant non-Federal records but is unable to
obtain them, or after continued efforts to obtain
Federal records concludes that it is reasonably
certain they do not exist or further efforts to
obtain them would be futile, VA will provide the
claimant with oral or written notice of that fact.
VA will make a record of any oral notice conveyed
to the claimant. For non-Federal records
requests, VA may provide the notice at the same
time it makes its final attempt to obtain the
relevant records. In either case, the notice must
contain the following information:
(i) The identity of the records VA was unable
to obtain;
(ii) An explanation of the efforts VA made to
obtain the records;
(iii) A description of any further action VA will
take regarding the claim, including, but not
limited to, notice that VA will decide the claim
based on the evidence of record unless the
claimant submits the records VA was unable
to obtain; and
(iv) A notice that the claimant is ultimately
responsible for providing the evidence.

90a
(2) If VA becomes aware of the existence of
relevant records before deciding the claim, VA
will notify the claimant of the records and
request that the claimant provide a release for
the records. If the claimant does not provide any
necessary release of the relevant records that VA
is unable to obtain, VA will request that the
claimant obtain the records and provide them to
VA.
(Authority: 38 U.S.C. 5103A(b)(2))
(f) For the purpose of the notice requirements in
paragraphs (b) and (e) of this section, notice to the
claimant means notice to the claimant or his or her
fiduciary, if any, as well as to his or her
representative, if any.
(Authority: 38 U.S.C. 5102(b), 5103(a))
(g) The authority recognized in subsection (g) of 38
U.S.C. 5103A is reserved to the sole discretion of the
Secretary and will be implemented, when deemed
appropriate by the Secretary, through the
promulgation of regulations.

